<html>
<title> - REVIEW OF NON-OIL AND GAS RESEARCH IN THE HOUSTON-GALVESTON-GULF COAST AREA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       REVIEW OF NON-OIL AND GAS
                       RESEARCH ACTIVITIES IN THE
                   HOUSTON-GALVESTON-GULF COAST AREA

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 4, 2003

                               __________

                           Serial No. 108-36

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

90-674              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
CURT WELDON, Pennsylvania            NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JERRY F. COSTELLO, Illinois
VERNON J. EHLERS, Michigan           LYNN C. WOOLSEY, California
GEORGE R. NETHERCUTT, JR.,           DAVID WU, Oregon
    Washington                       MICHAEL M. HONDA, California
W. TODD AKIN, Missouri               BRAD MILLER, North Carolina
MELISSA A. HART, Pennsylvania        LINCOLN DAVIS, Tennessee
PHIL GINGREY, Georgia                RALPH M. HALL, Texas
JO BONNER, Alabama
SHERWOOD L. BOEHLERT, New York
               KEVIN CARROLL Subcommittee Staff Director
         TINA M. KAARSBERG Republican Professional Staff Member
           CHARLES COOKE Democratic Professional Staff Member
                    JENNIFER BARKER Staff Assistant
                   KATHRYN CLAY Chairwoman's Designee


                            C O N T E N T S

                            December 4, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Dr. Eugene Levy, Provost, Rice University...........     5

Statement by Representative Judy Biggert, Chairman, Subcommittee 
  on Energy, Committee on Science, U.S. House of Representatives.     6
    Written Statement............................................     8

Statement by Representative Nick Lampson, Minority Ranking 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................     9
    Written Statement............................................    11

Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Energy, Committee on Science, U.S. House of 
  Representatives................................................   121
    Written Statement............................................   121

Statement by Mr. Mark White, Former Governor of Texas............    11

                               Witnesses:

Mr. Todd Mitchell, President, Houston Advanced Research Center
    Oral Statement...............................................    13
    Written Statement............................................    17

Dr. Richard E. Smalley, Director, Carbon Nanotechnology 
  Laboratory, Rice University
    Oral Statement...............................................    20
    Written Statement............................................    23
    Biography....................................................    25

Dr. Mark Holtzapple, Department of Chemical Engineering, Texas 
  A&M University
    Oral Statement...............................................    26
    Written Statement............................................    31
    Biography....................................................    84

Mr. Robert Hennekes, Vice President, Technology Marketing, Shell 
  Global Solutions
    Oral Statement...............................................    85
    Written Statement............................................    87
    Biography....................................................   108

Dr. Franklin R. Chang-Diaz, NASA Astronaut and Director of the 
  Advanced Space Propulsion Laboratory, Johnson Space Center
    Oral Statement...............................................   108
    Written Statement............................................   112
    Biography....................................................   115

Discussion.......................................................   117

             Appendix 1: Additional Material for the Record

SAFuel Project...................................................   136

 
REVIEW OF NON-OIL AND GAS RESEARCH IN THE HOUSTON-GALVESTON-GULF COAST 
                                  AREA

                              ----------                              


                       THURSDAY, DECEMBER 4, 2003

                  House of Representatives,
                            Subcommittee on Energy,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:30 p.m., in 
the Baker Institute Auditorium, Baker Hall, Rice University, 
Houston, Texas, Hon. Judy Biggert [Chairwoman of the 
Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       Review of Non-Oil and Gas

                       Research Activities in the

                   Houston-Galveston-Gulf Coast Area

                       thursday, december 4, 2003
                               1:30 p.m.
                            baker institute
                      baker hall, rice university
                             houston, texas

1. Purpose of Hearing

    On December 4, 2003 the Energy Subcommittee will hold a hearing to 
review the extensive non-oil and gas energy research that is being 
conducted in the Houston-Galveston-Gulf Coast area. This part of Texas 
hosts the highest concentration of the domestic oil and gas industry in 
the country. All of the multi-national oil companies also have 
extensive operations and facilities in the area. However, the area 
research community is very diversified and has extensive capabilities 
outside of the oil and gas sector. The hearing will take testimony on 
the scope of these activities and how current research being conducted 
in the areas is contributing to advances in energy conservation, 
efficiency and production.

2. Witnesses

    The following persons are expected to testify:

        <bullet>  Mr. Todd Mitchell, President; Houston Advanced 
        Research Center, The Woodlands, TX

        <bullet>  Dr. Richard Smalley, University Professor, Director 
        of the Carbon Nanotechnology Lab., Rice University, Houston, TX

        <bullet>  Dr. Mark Holtzapple, Professor, Department of 
        Chemical Engineering, Texas A&M University, College Station, TX

        <bullet>  Robert (Bob) Hennekes, Vice President, Technology 
        Marketing, Shell Global Solutions, Houston, TX

        <bullet>  Dr. Franklin Chang-Diaz, Johnson Space Center, 
        Houston, TX

3. Background

    For much of the 20th century Texas was the world leader in oil and 
gas production. In the 1920s discoveries of giant fields at Spindletop, 
east of Houston; The East Texas field, about 250 miles north of Houston 
and the beginning of the discoveries of oil and gas in West Texas put 
Texas on a course of transition of a largely agricultural economy to 
one heavily based on energy.
    Oil production in Texas was so prolific that proration orders were 
put into effect in the 1930's to prevent waste and over-production that 
led to reservoir damage. During World War II, the Big Inch and Little 
Inch Pipelines were built to move oil safely from Texas to the East 
Coast over land and out of reach of German submarines. Much of it was 
refined in Pennsylvania and New Jersey and shipped to our armed forces 
and allies in Western Europe. After WWII markets for natural gas 
developed and the interstate natural gas pipeline system grew rapidly, 
generally spreading from Texas and Louisiana west, north and east to 
supply markets on the West Coast, Midwest and East Coast. However, by 
1965 oil production had peaked and peak natural gas production followed 
about a decade later. Much oil and gas research was performed in Texas, 
primarily by the major oil companies, but almost all of those 
facilities have been closed as the industry has been squeezed the 
periodic downturns in the price of crude oil and natural gas and their 
production interests moved overseas.
    The strong influence of the oil and gas industry has created a 
highly capable and adaptable research community in the area, 
characterized by a combination of universities, private research 
institutions and corporations. As oil and gas fortunes have changed the 
research community has moved into other energy areas and is among the 
leaders in a number of non-oil and gas areas. This hearing will 
demonstrate the diverse nature of the Houston-Galveston area research 
community and provide the Subcommittee new information on technologies 
being developed that may have a substantial impact on meeting the 
Nation's future energy needs.
    Chairwoman Biggert. And I guess we have sound now.
    Did Dr. Levy want to say anything? Dr. Levy, would you like 
to say anything? We thank you very much for----
    Dr. Levy. Thank you, Madame Chairman.
    I am really please to welcome you this afternoon. My name 
is Eugene Levy. I'm the Provost of the University, and it's my 
pleasure to welcome you on behalf of the President Board of 
Trustees to the Rice Campus where we are very pleased to be 
hosting this gathering of participants from the scientific 
community and others who can share information with key policy 
makers from the United States Congress.
    Today we are particularly honored by the presence of 
Congresswoman Judy Biggert from the Thirteenth Congressional 
District of Illinois and Chair of the Subcommittee on Energy of 
the House of Representatives Committee on Science.
    In addition to chairing the Energy Subcommittee, 
Congresswoman Biggert is also a Member of Subcommittees of 
Environment, Technology, Standards, Education Reform and other 
committees.
    Representative Biggert, we are really pleased you chose 
Rice as the venue for today's hearing.
    Chairwoman Biggert. Thank you.
    Dr. Levy. Also honoring us with her presence today, we had 
expected the Chair of the Texas Delegation to the 108th 
Congress and a Member of the Research and the Space and 
Aeronautics Subcommittees of the House Committee on Science, 
The Honorable Sheila Jackson Lee, who I see is not yet with us, 
but I assume will join us soon.
    And finally, it is my real pleasure to see again and to 
welcome Congressman Nick Lampson, the Ranking Minority Member 
of the House Science Committee's Energy Subcommittee and also a 
Member of the Space and Aeronautics Subcommittee in the House, 
an especially fitting assignment inasmuch as Congressman 
Lampson's District includes the NASA Johnson Space Center here 
in Houston.
    Congressman Lampson, we are really delighted that you are 
here as well.
    Mr. Lampson. Thank you.
    Dr. Levy. Houston is a world leader in the international 
fossil fuel industry which has been so crucial to the 
development of modern society and prosperity throughout the 
world. Probably it is fair to say that the easy, relatively 
easy availability of fossil fuel energy has been among the 
handful of the singularly important factors that enable modern 
life. But now several factors point us to contemplate the time, 
probably the not so distant time, when circumstances dictate 
the necessity of developing other approaches to the generation 
and distribution of energy. Not as smaller secondary adjuncts 
anymore, but as main supply massive primary sources of energy. 
The reasons for this necessary transformation are several, and 
I am sure you will be hearing about them this afternoon.
    Meeting the need for new energy sources is a combined 
scientific engineering, economic and policy challenge. Houston 
scientific, engineering and policy community, and certainly 
Rice's community, is among those eager to take on that 
challenge. Meeting the new energy needs will entail marshalling 
capabilities and imagination and numerous spheres including 
nanotechnology, information technology, environmental 
technology and especially in the new and challenging areas that 
lie at the intersection of those fields including through 
Policy Studies Center here, at Rice's Baker Institute for 
Public Policy on the campus.
    The Baker Institute, I should remark here, has established 
an especially important and prominent position in energy policy 
studies. So what's especially pleasing to us about having this 
hearing on the Rice campus is that it is potentially so forward 
looking a conversation. At Rice we have also been especially 
focused on looking forward to plot a future for the university 
that will realize it's potential for service to society in the 
highest possible way.
    Altogether, our continuing aspiration for Rice is to define 
and occupy a position at the cutting edge of service to our 
society through research, education and outreach to the 
community, including importantly, outreach to the public 
schools with this entire crucial endeavor ultimately gets 
started. It is in that overall spirit that we welcome this 
hearing and Members of Congress, and the rest of you to the 
Rice campus. The spirit that animates this session needs to 
spread widely throughout our society.
    So, again, I welcome you to Rice and trust that we all 
learn a great deal, and that that will help us move forward 
together into a very bright future.
    Thank you, and welcome to the campus.
    Chairwoman Biggert. Thank you very much, Dr. Levy.
    And I would like to welcome everyone here to this field 
hearing of the Energy Subcommittee of the House Science 
Committee.
    The purpose of the hearing today is to take a look at non-
oil and gas research in the Houston area. That might be 
difficult because we always think from other states that this 
is the center of the oil and gas. But now granted, this is very 
broad but so too are the knowledge and research territory 
covered by the panel we will hear from today. Combining 
expertise from universities, private research institutes, 
corporations and federal science agencies like NASA, today's 
panel will cover a broad range of issues and technologies from 
high temperature plasmas to rotary combustion engines. And I'd 
like to thank our panelists for attending today, and I want to 
thank Rice University for graciously hosting us.
    As Chairman of the Energy Subcommittee, I've enjoyed 
serving with Mr. Lampson in his role as Ranking Minority 
Member. And during the development of the R&D provisions in the 
Energy Bill, he and Representative Jackson Lee championed the 
development of the first comprehensive report on oil and gas 
resources off the shores of Texas and Louisiana. And Mr. 
Lampson made sure the bill included a project to demonstrate 
the benefits of fuel cells in local residential neighborhoods 
that are in close proximity to refiners that produce hydrogen. 
So we know northerners mostly know Texas for its history of oil 
and gas production, but the Lone Star State also supports a 
diverse portfolio of innovative energy research.
    In addition to research on carbon sequestration and 
thermonuclear fusion, researchers throughout Texas are working 
to create a new engine that could displace the internal 
combustion engine, generate hydrogen from various carbon feed 
stocks such as biomass and municipal solid waste, harness the 
power of nanotechnology to improve all types of energy 
production and conversion, and reduce the energy use of 
buildings and vehicles.
    So Members of our Energy Subcommittee, like so many in 
attendance today, understand the importance of developing 
energy alternatives and new energy technologies, particularly 
in light of our increasing dependence on foreign sources of 
oil. Combine that over-reliance with the environmental impact 
of fossil fuel emissions and the research we will discuss today 
becomes even more crucial.
    What I like most about the National Energy Policy proposed 
by President Bush two years ago and the Energy Bill Conference 
report recently passed by the House is that both emphasize the 
use of advanced technology to expand and diversity our energy 
supply, meet growing demand and reduce the environmental impact 
of energy production and use.
    Advanced energy technologies grow out of basic science and 
applied energy research like that supported by the Federal 
Government and our universities and national laboratories.
    In numerous hearings before our committee, witnesses have 
testified that affordable energy and a clean and safe 
environment are not mutually exclusive. We can lessen our 
dependence on fossil fuels, reduce harmful emissions and 
improve our economic competitiveness by harnessing American 
ingenuity, putting technology to work and cutting through some 
of the red tape that has stifled the development of new energy 
supplies and infrastructure. That's why I think Texas is an 
appropriate place to hold this hearing today. There is a lot of 
cutting edge research underway here and you are taking full 
advantage of the alternative energy supplies available to you.
    Now, it's true that I'm from the windy city, but it turns 
out that Texas is the windy State. For instance, renewable 
energy growth in Texas fueled primarily by wind has been 
remarkable. Texas has the second largest wind resource in the 
United States after North Dakota, and is expected to have more 
than 1200 megawatts of generating capacity on line by the end 
of this year. So, unfortunately or fortunately there's not wind 
everywhere in the United States like there is in Texas, not 
even in the windy city of Chicago, where I blew in from this 
morning. And that is why it is important that we continue 
researching solutions that will work in other parts of the 
country such as biomass for the northeast, energy from the 
ocean for coastal states, or even nuclear power which provides 
over 50 percent of emissions free electricity in my own State 
of Illinois.
    As another example, Illinois has significant coal 
resources, which is why I am particularly interested in carbon 
sequestration research. Some day we may be able to combine 
carbon sequestration technologies with high tech coal fired 
power plants to make electricity and hydrogen for our fuel 
demands without emitting carbon dioxide.
    America now has the motivation, perhaps like no other time 
since the oil crises of the '70's, to find newer and better 
ways to meet our energy needs. But American also has the 
ingenuity and the expertise to meet our future energy demands 
and promote energy conservation. And we can do environmentally 
responsible ways that set a standard for the world.
    I look forward to the exciting new technologies that each 
of our distinguished panelists is working on. So, again, thank 
you for presenting testimony to the Committee today.
    And before getting to the panel, I first recognize Mr. 
Lampson for his opening statement.
    [The prepared statement of Chairman Biggert follows:]

              Prepared Statement of Chairman Judy Biggert

    The hearing will come to order.
    I want to welcome everyone to this field hearing of the Energy 
Subcommittee of the House Science Committee. The purpose of this 
hearing today is to take a look at non-oil and gas research in the 
Houston Area. Now granted, this is very broad, but so too is the 
knowledge and research territory covered by the panel we will hear from 
today. Combining expertise from universities, private research 
institutions, corporations, and federal science agencies like NASA, 
today's panel will cover a broad range of issues and technologies, from 
high temperature plasmas to rotary combustion engines. I want to thank 
our panelists for attending today, and I want to thank Rice University 
for graciously hosting us.
    As Chairman of the Energy Subcommittee, I've enjoyed serving with 
Mr. Lampson in his role as Ranking Minority Member. During development 
of the R&D provisions in the energy bill, he and Rep. Jackson Lee 
championed the development of the first comprehensive report on oil and 
gas resources off the shores of Texas and Louisiana. And Mr. Lampson 
made sure the bill included a project to demonstrate the benefits of 
fuel cells in local residential neighborhoods that are in close 
proximity to refiners that produce hydrogen.
    We Northerners mostly know Texas for its history of oil and gas 
production, but the Lone Star State also supports a diverse portfolio 
of innovative energy research. In addition to research on carbon 
sequestration and thermonuclear fusion, researchers throughout Texas 
are working to:

        <bullet>  create a new engine that could displace the internal 
        combustion engine,

        <bullet>  generate hydrogen from various carbon feedstocks such 
        as biomass and municipal solid waste,

        <bullet>  harness the power of nanotechnology to improve all 
        types of energy production and conversion, and

        <bullet>  reduce the energy use of buildings and vehicles.

    Members of our Energy Subcommittee, like so many in attendance here 
today, understand the importance of developing energy alternatives and 
new energy technologies, particularly in light of our increasing 
dependence on foreign sources of oil. Combine that over-reliance with 
the environmental impact of fossil fuel emissions, and the research we 
will discuss today becomes even more crucial.
    What I liked most about the National Energy Policy proposed by 
President Bush two years ago, and the energy bill conference report 
recently passed by the House, is that both emphasize the use of 
advanced technology to expand and diversify our energy supply, meet 
growing demand, and reduce the environmental impact of energy 
production and use. Advanced energy technologies grow out of basic 
science and applied energy research like that supported by the Federal 
Government at our universities and national laboratories.
    In numerous hearings before our committee, witnesses have testified 
that affordable energy and a clean and safe environment are not 
mutually exclusive. We can lessen our dependence on fossil fuels, 
reduce harmful emissions, and improve our economic competitiveness by 
harnessing American ingenuity, putting technology to work, and cutting 
some of the red tape that has stifled the development of new energy 
supplies and infrastructure.
    That's why I think Texas is an appropriate place to hold this 
hearing today. There's a lot of cutting edge research underway here, 
and you are taking full advantage of the alternative energy supplies 
available to you.
    Now it's true, I am from the Windy City, but it turns out that 
Texas is the Windy State. For instance, renewable energy growth in 
Texas, fueled primarily by wind, has been remarkable. Texas has the 
second largest wind resource in the U.S., after North Dakota, and is 
expected to have more than twelve hundred megawatts of generating 
capacity online by the end of the year.
    Unfortunately or fortunately, there's not wind everywhere in the 
U.S. like there is in Texas, not even in the ``windy city'' of Chicago 
where I blew in from this morning. That is why it is important that we 
continue researching solutions that will work in other parts of the 
country, such as biomass for the Southeast, energy from the ocean for 
coastal states, or even nuclear power, which provides over 50 percent 
of emissions-free electricity in my own State of Illinois.
    As another example, Illinois has significant coal resources, which 
is why I am particularly interested in carbon sequestration research. 
Some day we may be able to combine carbon sequestration technologies 
with high-tech coal-fired power plants to make electricity--and 
hydrogen for our fuel cell cars--without emitting carbon dioxide.
    America now has the motivation--perhaps like no other time since 
the oil crisis of the `70's--to find newer and better ways to meet our 
energy needs. But America also has the ingenuity and the expertise to 
meet our future energy demands and promote energy conservation, and we 
can do so in environmentally responsible ways that set a standard for 
the world.
    I look forward to hearing about the exciting new technologies that 
each of our distinguished panelists is working on. Thank you again for 
presenting testimony to the Committee today.
    Before getting to the panel, I first want to recognize Mr. Lampson 
for his opening statement.

    Mr. Lampson. Thank you, Madame Chair, and welcome to Texas.
    Chairwoman Biggert. Thank you.
    Mr. Lampson. Judy Biggert is a very good Member of 
Congress, and a wonderful woman to be able to work with on this 
committee. And I am very pleased that you were able to take the 
time to come down to Texas and participate in this thing, which 
I do indeed believe is a very important hearing for us.
    She has been a Member of Congress since 1998. One of the 
things that I particularly found impressive about her, many of 
you who have followed me at all know that I am involved with 
some issues other than the ones that we are here to discuss 
today, particularly those that deal with missing children. And 
Chairwoman Biggert has been involved with legislation that 
dealt with the cyber tip line, making it easier to track and 
report computer based sex crimes against children. And doing 
some other things as far as trying to track down people who 
have ecstasy and all. So your good work goes way beyond the 
work that you do on science. And I am very pleased that you 
were able to come over today.
    I also know that you have the Argonne National Laboratory 
located within your District, which is very important to you 
and, consequently, the work that you are doing on science can 
make a significant difference to the people that you represent.
    She has been a leading champion of research in science 
programs in Congress. And she's a sponsor of the Energy and 
Science Research Investment Act which will provide additional 
resources to the Department of Energy's Office of Science and 
will make organizational changes that will enhance the 
accountability and oversight of energy research and science 
programs at the Department of Energy.
    Also I want to thank the folks at Rice. This is a 
magnificent facility and it's always a pleasure to come here. 
You are always gracious hosts. And it is a thrill to be able to 
come and continue to learn about the activities that are going 
on by the bright men and women who work at this place and the 
research activities within which they are involved.
    I also want to welcome this excellent group of witnesses. 
There is a tremendous level of non-oil and gas research and 
development activity in the Houston/Galveston area. And I 
wanted to make sure that the House Science Committee has the 
benefit of your testimony as we move forward to tackle these 
important issues. So I thank all of you for joining us today.
    I have been talking for years about the need for us to make 
an orderly transition into what is going to be tomorrow's 
driving force within our economy. And those of us who think 
about it today and find out what it is that we can begin to do 
and move to replace those activities that we are involved with 
today, will be the leaders of tomorrow. And I hope that is us 
right here in Southeast Texas, particularly.
    The Science Committee's Subcommittee on Energy is charged 
with overseeing research and development programs at the 
Department of Energy. Issues that the Subcommittee deals with 
range from alternative sources of energy, renewable energy, 
nanotechnology, nuclear energy, cutting edge science performed 
at DOE's national lab. And as a former science teacher I find 
the work that this committee does fascinating and extremely 
important to our future.
    The Science Committee recently moved key aspects of the 
House Energy Bill, particularly in the areas of DOE research 
and development. And with a major portion of our current supply 
coming from overseas, it is essential that we make significant 
national investments in the Department of Energy Research and 
Development programs to give us greater control over our future 
national energy supply. Got to find ways to being to wean 
ourselves away from that and be dependent on ourselves.
    Our efforts must be focused now only on fossil fuels, but 
across a broad spectrum of energy sources, including wind and 
solar, nuclear, hydroelectric and others.
    I am proud of a project that we are looking at in Galveston 
that will cause the cruise ships that berth there to be plugged 
into a fuel cell, the energy of which will be generated from 
wind on that island. So it's very important.
    Conversation and energy efficiency programs are also 
essential. And I supported the Energy Bill because I believe it 
provides us with a balanced approach to address our future 
energy needs, and we owe this to our future generations.
    Now, I am going to take a personal privilege and ask 
Chairwoman Biggert to allow me to introduce someone who I 
noticed in the audience. He was a former Governor of Texas, 
Mark White. And I had a conversation with Governor White 
recently, and it was interesting because, part, when I told him 
about this particular meeting he made a comment that he was 
discussing these issues in 1983. And it is interesting that we 
are continuing to comment on the same kinds of things.
    A company that he is involved with called Texoga is 
involved with some, I think very exciting oxygenating fuels 
technology called SAFuel. And it is ester based oxygenated fuel 
that's run in diesel engines with greatly reduced emissions and 
virtually no toxicity or flammability.
    And I thought that it might be appropriate to take a few 
seconds and ask him if he would say a word. And I also would 
ask consent to enter some information about SAFuel into our 
record for today.
    Chairwoman Biggert. Without objection.
    [The information referred to appears in Appendix 1: 
Additional Material for the Record.]
    Mr. Lampson. Governor White, would you like to make a 
comment?
    [The prepared statement of Mr. Lampson follows:]

           Prepared Statement of Representative Nick Lampson

    I would like to welcome Madam Chairman Judy Biggert to Texas. She 
chairs the House Science Committee's Subcommittee on Energy and has 
represented her suburban Chicago constituents in the Thirteenth 
District of Illinois in Congress since 1998.
    As a Member of the Science Committee we have worked together to 
strengthen our country's basic science research facilities. And I know 
this is of particular importance to the Chair--with Argonne National 
Laboratory located within her district.
    Representative Biggert has been a leading champion of research and 
science programs in Congress. She is the sponsor of the Energy and 
Science Research Investment Act, which will provide additional 
resources to the Department of Energy's Office of Science, and make 
organizational changes that will enhance the accountability and 
oversight of energy research and science programs at the Department of 
Energy. It is a pleasure to have you here today.
    I would like to thank Rice University for being such a gracious 
host. Rice is known around the world for their cutting edge science and 
technology programs. I couldn't think of a more appropriate venue for 
our hearing.
    I would also like to welcome this excellent group of witnesses. 
There is a tremendous level of non-oil and gas research and development 
activity in the Houston-Galveston area and I wanted to make sure that 
the House Science Committee has the benefit of your testimony as we 
move forward to tackle these important issues. Thank you for joining 
us.
    The Science Committee's Subcommittee on Energy is charged with 
overseeing research and development programs at the Department of 
Energy (DOE). Issues that the Subcommittee deals with range from 
alternative sources of energy, renewable energy, nanotechnology, 
nuclear energy, and cutting edge science performed at DOE's national 
labs.
    As a former science teacher, I find the work that this committee 
does fascinating and extremely important to our future. The Science 
Committee recently moved key aspects of the House Energy bill 
particularly in the areas of DOE research and development. With a major 
portion of our current oil supply coming from overseas, it is essential 
that we make significant national investments in Department of Energy 
research and development programs to give us greater control over our 
future national energy supply.
    Our efforts must be focused not only on fossil fuels, but across a 
broad spectrum of energy sources including wind, solar, nuclear, 
hydroelectric and others. Conservation and energy efficiency programs 
are also essential. I supported the Energy bill because I believe it 
provides us with a balanced approach to our address our future energy 
needs. We owe this to future generations.

       STATEMENT OF MARK WHITE, FORMER GOVERNOR OF TEXAS

    Mr. White. Well, thank you very much, Congressman. I am 
certainly delighted that you selected Houston for this hearing, 
because I do not guess there is a more important place in our 
nation for the production of petrochemical fuels than Houston, 
Texas, this part of the country.
    You have a distinguished panel here that is located Rice 
University, which is down the road from a place where I grew 
up. And the only way I could ever get into this campus is if I 
bought a ticket to the football game. But I gained admission to 
the school. I took science twice in college, and it was not 
because I liked it so much. So do not ask me any very deep 
science question. The chemistry underlying what I'm about say, 
and these are observations from a former public servant and an 
everyday citizen.
    But just as we were talking the other day that 20 years ago 
we wee having some of these similar discussions and worried and 
concerned about what we were going to do for energy 
independence, what we were going to do about improved quality 
of our environment, at the same time retain our economic 
figure. And we are discussing that again here this year today.
    I had the occasion, Madame Chairman, to call soybean 
producers in Illinois and ask a few questions this morning. It 
was not in anticipation in this hearing. But I want to say that 
there is some things going on in Illinois that all of us in 
this nation could benefit from in the way in which you all have 
gone about using soybean and producing bio-fuels for vehicles 
up there in your part of the country. It enhances the--gives 
fuller utilization to our agricultural produce. It improves the 
quality of the emissions from diesel engines dramatically. And 
with a little support from your State government and I'm sure 
the Federal Government it makes it economically viable.
    I think that is something that should be considered in the 
fuels that we are talking about. I know many people will say 
``Well, it won't have a big enough impact.'' But it seems that 
every piece of advance that we make is a positive issue and can 
do a great deal of good in the totality if we look at it in 
that overview.
    I wish the Committee would recall but for legislative 
action and governmental action, we would probably still be 
using leaded gasoline today in this country. It was a mandate 
that had to be done to make those changes.
    I think that there are some things that have recurred and 
evidence again is what I have heard in the State of Illinois. 
Your soybean producers using that product from agriculture to 
produce a bi-diesel that is very environmentally friendly and 
has very few downsides that I am aware of. It may be just that 
sort of thing that could be required and mandated by the 
Congress and say this is what we ought to be doing; let us go 
do it. It is not unlike what we see in the health care sciences 
in which they discovery some new chemical or some new pill and 
which can be applied immediately to change the outcome of 
disease, reverse it. They do not go forward with another 10 
years of research. They stop the research and say the tests 
have gone so well, we just need to implement it.
    I think we may get that studied in this particular area as 
far as bio-diesel concerns. It has been used throughout western 
Europe to good effect. It is something that can be blended into 
our fuels right now, causes very little change as far as I am 
aware. No change in the way in which the fuel settings are 
adjusted in a diesel engine. And will give very positive 
results from the environmental point of view. Good for farmers, 
good for environment, helps displace foreign imported oil and 
improves the outflow of funds or reverses the outflow of funds 
in our balance of payments.
    I think it is something, Madame Chairman, that would be 
just fine that could be looked at more thoroughly and quickly 
with swift action hopefully following by your Committee.
    Thank you, again, for letting me come back here today. I 
have enjoyed very much the opportunity to say a few words to 
you.
    You could not have a more distinguished panel. And quite 
frankly, I think if we can combine the information you will 
have here with what you are doing in the great State of 
Illinois, we will combine the strong winds of both sources and 
make a much better country. Thank you.
    Mr. Lampson. Thanks, Governor.
    Chairwoman Biggert. And with that, we will turn on the 
panels.
    I think that I will introduce all of you and then we will 
start.
    Actually, Todd Mitchell is President of the Houston 
Advanced Research Center and he's accompanied by Dan Bullock, 
HARC Research scientist and Greg Cook, HARC Air Quality 
Consultant and former EPA Region 6 Administrator. Welcome.
    Dr. Richard Smalley is the Director of the Carbon 
Nanotechnology Laboratory right here at Rice University, and he 
is accompanied by Dr. Howard K. Schmidt, Executive Director of 
the Carbon Nanotechnology Lab and Dr. Robert H. Hauge, the 
Technology Director of the Carbon Nanotechnology Lab.
    And Mark Holtzapple, Department of Chemical Engineering, 
Texas A&M University. Welcome.
    And Robert Hennekes, Vice President of Technology 
Marketing, Shell Global Solutions.
    Franklin Chang-Diaz, NASA Astronaut and Director of the 
Advanced Space Propulsion Laboratory at the Johnson Space 
Center.
    So welcome to all of you.
    Usually the way that our hearings are, it is a 5-minute 
limit on your testimony. We will have a little more leeway here 
today, but if you could keep it to about 10 minutes so we will 
have some time for questions.
    And we will summarize your testimony, and then that will be 
incorporated into the record without objection.
    We will start with Todd Mitchell.

    STATEMENT OF TODD MITCHELL, PRESIDENT, HOUSTON ADVANCED 
  RESEARCH CENTER; ACCOMPANIED BY DAN BULLOCK, HARC RESEARCH 
   SCIENTIST; AND GREG COOK, HARC AIR QUALITY CONSULTANT AND 
               FORMER EPA REGION 6 ADMINISTRATOR

    Mr. Mitchell. Thank you very much, Representative Biggert 
and Lampson for inviting us to be here today.
    First, before I read some of my prepared comments, I am a 
geologist. I grew up in the oil business. I am a second 
generation oil and gas person and find myself at this stage of 
my career having decided that there has got to be a better way. 
And so Houston Advanced Search Center fully dedicated to 
looking at clean and renewable energy production and energy 
efficiency as a key component of the picture from the 
standpoint of how a non-profit organization can help advance 
some causes that are very important.
    Houston Advance Research Center, it is a non-partisan 
research organization. Our mission statement says that we are 
dedicated to mobilizing the tools of science, policy and 
technology to improve people's lives and protect the 
environment in Texas. HARC serves as an unbiased, neutral 
organization that cooperates with universities, industry and 
governmental agencies to address complex and pressing issues 
related to how people interact with the natural environment on 
a regional scale. By applying an interdisciplinary approach to 
research and policy priorities, HARC seeks to improve decision-
making and increase awareness of how science and technology can 
support and implement sustainability concepts.
    HARC has been active in energy research since the 1980's, 
initially concentrating on oil and gas technologies. HARC 
managed consortium-based research programs funded by many of 
the world's largest E&P companies. Our primary research focus 
was on seismic, petrophysics and geochemistry. In the early 
1990's the Geotechnology Research Institute was formed at HARC 
and designated as a state entity by the legislature of Texas 
with a mission to carry out research related to advanced 
hydrocarbon exploration techniques. But in the mid-1990's, the 
legislature expanded GTRI's mandate to include environmental 
geosciences.
    In 2000 HARC narrowed its mission and dedicated itself to 
advancing the concepts of sustainable development in Texas. In 
the lexicon of sustainable development, protection of the 
natural environment is given a priority alongside social and 
economic development goals. With its new mission, HARC phased 
out our petroleum-related energy research programs and focused 
now entirely on clean and renewable energy.
    While there are many reasons for our nation to develop 
clean and renewable energy resources, ranging from national 
security to minimizing the greenhouse affect on global
    climate, HARC is particularly active in the link between 
energy generation and urban air quality.
    Energy and air quality have become interlocking pieces in a 
critical technology and policy puzzle. Energy generated for 
residential, business, and transportation uses is a primary 
cause of air pollution in Texas cities, as well as cities 
around the world. There are four non-attainment areas in Texas 
for the 1-hour ozone standard, including Dallas/Ft. Worth, 
Houston/Galveston, Beaumont, Port Arthur, and El Paso. By 
remaining in a non-attainment status, the State of Texas stands 
to lose access to billions of dollars in federal transportation 
funds. We have seen estimates recently that the cost of Texas 
failing to come into compliance with the attainment standards 
could account for a loss of $24 to $26 billion net present 
value. So the costs are extremely serious.
    The Houston region has the country's largest petrochemical 
infrastructure, which is a major source of point source 
pollution. But Houstonians drive further on average than 
residents of any other United States city. And if you add to 
that a hot and humid climate and other accidents of geography 
and meteorology, the result is an air shed that is capable of 
producing ozone at unprecedented rates. The health costs and 
lost productivity related to air pollution in Houston alone 
exceeds $3 billion annually.
    The civic and business leadership in Houston has determined 
that Houston's poor air quality is having a detrimental impact 
on job creation and corporate relocations to the region.
    To address the crisis, the State of Texas is actually doing 
some fairly progressive and unprecedented things. There is a 
program that is providing $150 million called the Texas 
Emissions Reduction Program. $150 million annually for the 
reduction of air emissions specifically looking at NOX 
reductions with a large focus on diesel emissions.
    Within that $150 million program, 9.5 percent of it will be 
focused on environmental technologies. There's an organization 
called the Texas Council on Environmental Technology, which 
will be funded to the tune of $12 to $15 a year to fund the 
development and deployment of air emissions technologies. And I 
am speaking about air quality, but ultimately most of these 
technologies link back to energy generation.
    If I were to describe to HARC's role, I'd like to sort of 
divide it into sort of a energy generation and energy 
efficiency programs that we have at HARC.
    In the energy supply side, one of the first programs that 
I'll mentioned is in the hydrogen powered automobiles. Hydrogen 
fuel cells will be the power trains of the future, but 
significant market penetration of hydrogen-powered vehicles is 
over a decade away. In the meantime, major auto companies will 
roll out prototype fuel cell vehicles, first in limited pilot 
programs and then later within fleets, and finally as a mass 
market.
    Texas has the second and third largest truck and auto 
market in the country. We have got significant air quality 
problems and we have a fairly pro-business environment. And for 
those reasons, Texas has become an essential base of operations 
for the major auto companies that will be rolling out fuel cell 
vehicles. The market is too big here and the air quality 
challenges too significant for the fuel cell auto manufacturers 
to ignore the Texas market.
    HARC is in discussions with two auto companies about 
providing support for fuel cell vehicle roll-outs, and we look 
to work in the following areas:
    First of all, providing strategic expertise linking the 
science and policy of air quality and transportation in Texas;
    Secondly, we would like to provide a physical site for 
pilot scale demonstration programs;
    We would like to identify and coordinate fleet partners to 
help roll out these new technologies; and
    We would like to be involved with data collection and 
analysis to support these auto companies as they manage and 
test these fuel cell vehicles.
    Within the stationary fuel cell area, we believe that fuel 
cell powered vehicles are more than a decade away from being 
significantly penetrated into the market, but residential and 
commercial fuel cell applications can provide early markets to 
support industry development and technology advancements. 
Because stationary applications are less constrained by weight 
and size limitations and are easier to supply with hydrogen 
feedstock, they can be deployed in greater numbers within the 
next few years.
    An area of need that precedes widespread adoption of this 
new technology is the creation of programs to test and evaluate 
early commercial products and to communicate this information 
to potential consumers. Since 2000, HARC has been engaged in 
such a program and is active in helping industry assess the 
market readiness of this technology. Our fuel cell applications 
consortium is supported by ChevronTexaco, BP, Shell Hydrogen, 
Southern Company, Disney, and other corporate and governmental 
entities. Texas A&M University and University of Houston are 
active observers in the consortium.
    HARC's fuel cell applications program is also active in 
deploying fuel cells in demonstration settings as a valuable 
precursor to more widespread commercial adoption. We are 
currently in discussion with the City of Houston and Bush 
Intercontinental Airport about a fuel cell program to reduce 
airport emissions
    In the area of hydrogen generation, the main process for 
hydrogen generation today is Steam Methane Reformation or SMR. 
The SMR process is based on reacting steam with methane over a 
catalyst to form hydrogen. The cost of producing hydrogen 
through SMR is dependent on the price of natural gas; however, 
the price volatility of natural gas and the increasing demand 
for hydrogen create the need for a new reliable low cost source 
of supply. HARC has established a partnership to investigate a 
new approach to produce hydrogen at low cost. The key to the 
economics of this process, which is called the HydroMax 
technology, is the use of carbon feedstocks that have little or 
no value such as biomass, sewage sludge and municipal waste.
    The process is a low risk adaptation of existing bath 
smelting technology that has been in commercial use for over 20 
years. Conceptual engineering has been performed to develop 
estimates for a commercial plant. And a number of process 
simulations have shown that a wide range of carbon feedstocks 
is viable.
    The operating cost of producing hydrogen via this process 
is less than zero if you take into account byproduct credits 
for electricity generation, steam and ammonium sulfate 
fertilizer. When carbon sources with a negative net cost are 
available, such as municipal waste or sewage sludge, it is 
possible to produce hydrogen at even lower costs.
    In addition to what I've entered in the written testimony 
is that we have made it to a second round of DOE review for a 
proposal written to fund a pilot study for this program.
    In the reduced energy demand side, we are working actively 
in the hybrid vehicle arena. We have a partnership right now 
with Environmental Defense and Federal Express. Federal Express 
has developed a delivery vehicle that has using a diesel-
electric hybrid motor can reduce fuel use by 50 percent and NOX 
emissions by 90 percent. This is a developed prototype. There 
will be six of these rolled out in the immediate coming months 
in Texas. With those vehicles, HARC is being hired to look at 
market penetration and to assess air emissions impacts over 
time. And having executed this project I think very well, we 
are now in discussions with other parties about helping 
entities who want to introduce these prototype technologies in 
Texas.
    Energy efficient buildings is an area that we are hiring a 
nationally known expert. If you look at buildings nationwide, 
residences and commercial building account for approximately 
one-third of energy consumption and two-thirds of our 
electricity to man, as well as being a contributor to SOX and 
NOX emissions. There is a major certification programmed called 
LEEDs program which is gaining nationwide recognition as the 
primary certification for so called ``green buildings.'' The 
problem with green buildings is that that is an undefined term 
until you put metrics onto it. The LEEDS program helps define.
    Thank you very much.
    [The prepared statement of Mr. Mitchell follows:]

                  Prepared Statement of Todd Mitchell

Introduction

    Houston Advanced Research Center (HARC) is a non-partisan research 
organization dedicated to mobilizing the tools of science, policy and 
technology to improve people's lives and protect the environment in 
Texas. HARC serves as an unbiased, neutral organization that cooperates 
with universities, industry and governmental agencies to address 
complex and pressing issues relating to how people interact with the 
natural environment on a regional scale. By applying an 
interdisciplinary approach to research and policy priorities, HARC 
seeks to improve decision-making and increase awareness of how science 
and technology can support and implement sustainability concepts.
    HARC has been active in energy research since the 1980s, initially 
concentrating on oil and gas technologies. HARC managed consortium-
based research programs sponsored by many of the world's largest E&P 
companies. HARC's primary research focus was on seismic imaging of the 
subsurface, with ancillary programs in petrophysics and geochemistry. 
In the early 1990s the Geotechnology Research Institute (GTRI) was 
formed at HARC and designated as a state entity by the Texas 
legislature to carry out research related to advanced hydrocarbon 
exploration techniques. In the mid-1990s, the legislature expanded 
GTRI's mandate to include environmental geosciences.
    In 2000 HARC narrowed its mission and dedicated itself to advancing 
the concepts of sustainable development in Texas. In the lexicon of 
sustainable development, protection of the natural environment is given 
a priority alongside social and economic development goals. With its 
new mission, HARC phased out petroleum-related energy research to focus 
entirely on clean and renewable energy.
    While there are many reasons for our nation to develop clean and 
renewable energy resources--ranging from national security to 
minimizing the greenhouse affect on global climate--HARC is 
particularly active in the link between energy generation and urban air 
quality.

Energy and Air Quality--HARC's Role

    Energy and air quality have become interlocking pieces in a 
critical technology and policy puzzle. Energy generated for 
residential, business, and transportation uses is a primary cause of 
air pollution in Texas cities.
    There are four non-attainment areas in Texas for the one-hour ozone 
standard, including Dallas-Ft. Worth, Houston-Galveston, Beaumont, Port 
Arthur, and El Paso. The new eight-hour standard will expand the number 
of non-attainment areas substantially. Houston is consistently second 
in the U.S. only to the Los Angeles region in the number of days of 
ozone exceedances. By remaining in a non-attainment status, the State 
of Texas stands to lose access to billions of dollars in federal 
transportation funds, as well as potentially suffering other penalties 
and being subject to federally mandated measures. By failing to meet 
federal ozone standards, it has been estimated that Texas would 
experience economic losses of $24 to $36 billion over the next 10 
years.
    The Houston region has the country's largest petrochemical 
infrastructure--a major source of point source pollution--and 
Houstonians drive further on average than residents of any other U.S. 
city. Add to that a hot and humid climate and other accidents of 
geography and meteorology, and the result is an air shed that is 
capable of producing ozone at unprecedented rates. Health costs and 
lost productivity related to air pollution in Houston exceed $3 billion 
annually. Civic and business leadership in Houston has determined that 
Houston's poor air quality is having a detrimental impact on job 
creation and corporate relocations to the region.
    To address the air crisis, a variety of measures, some 
demonstrating unprecedented leadership and cooperation, are emerging. 
The State of Texas, in its recent legislative session, authorized 
estimated revenues of $150 million annually for the Texas Emissions 
Reduction Program (TERP), an incentive-based program focusing on 
reducing vehicle emissions, and NOX emission reductions in particular. 
A subset of the TERP funding, allocated to a program called the Texas 
Council on Environmental Technology (TCET), provides $14 million 
annually to promote the development, deployment, and validation of 
technology that will reduce air emissions, especially NOX and VOCs.
    The legislature also approved expenditure of an estimated $3 
million for air research on the Dallas and Houston areas. This program, 
overseen by the Texas Environmental Research Consortium (TERC), will 
improve the reliability of input information and air shed models in 
East Texas. TERC has selected Houston Advanced Research Center as a 
Research Management Organization to oversee the expenditure of these 
funds and to work with regional stakeholders to translate the research 
for the benefit of public policy-makers.

Clean Energy Supply--HARC's Role

    The federal regulations that require States to clean up the air 
also create opportunities and incentives to deploy new clean energy 
technologies. HARC is actively engaged in introducing energy 
technologies with direct impacts on air quality.
    Hydrogen powered automobiles. Hydrogen fuel cells are the power 
trains of the future, but significant market penetration of hydrogen-
powered vehicles is over a decade away. In the meantime, major auto 
companies will roll out prototype fuel cell vehicles, first in limited 
pilot programs, later within fleets, and finally to a mass market. 
Texas, with the second and third largest truck and auto market in the 
country, significant urban air quality challenges, and a pro-business 
environment, is an essential base of operations for auto companies 
wishing to roll out fuel cell powered vehicles. HARC is in discussions 
with two auto companies about providing support for fuel cell vehicle 
roll-outs in the following areas: (a) strategic expertise linking the 
science and policy of air quality and transportation in Texas; (b) a 
physical site for pilot scale demonstration programs; (c) 
identification and coordination of fleet partners; and (d) data 
collection and analysis support for operational fuel cells.
    Stationary fuel cells for commercial and residential buildings. 
While fuel cell powered vehicles are more than a decade away from being 
significant in number, residential and commercial fuel cell 
applications could provide early markets to support industry 
development and technology advancements. Because stationary 
applications are less constrained by weight and size limitations and 
easier to supply with hydrogen feedstock, they can be deployed in 
greater numbers within the next few years. One area of need that 
precedes widespread adoption of this new technology is the creation of 
programs to test and evaluate early commercial products and to 
communicate this information to potential consumers. Since 2000, HARC 
has been engaged in such a program and is active in helping industry 
assess the market readiness of the technology. Our fuel cell 
applications consortium is supported by ChevronTexaco, BP, Shell 
Hydrogen, Southern Company, Disney, and other corporate and 
governmental entities. Texas A&M University and University of Houston 
are active observers in the consortium. HARC's fuel cell application 
program is also actively deploying fuel cells in demonstration settings 
as a valuable precursor to more widespread commercial adoption. HARC is 
currently in discussion with the City of Houston and Bush 
Intercontinental Airport regarding a fuel cell program to provide low 
emissions electricity to ground-support equipment.
    Hydrogen generation. The main process for hydrogen generation today 
is Steam Methane Reformation (SMR). The SMR process is based on 
reacting steam with methane (natural gas) over a catalyst to form 
hydrogen. The cost of producing hydrogen through SMR is dependent on 
the price of natural gas; however, the price volatility of natural gas 
and the increasing demand for hydrogen create the need for a reliable 
low cost source of supply. HARC has established a partnership to 
investigate a new approach to produce hydrogen at a low cost. The key 
to the economics of the HydroMax technology is the use of carbon 
feedstocks that have little or no value such as biomass, sewage sludge 
and municipal waste. The process is a low risk adaptation of existing 
bath smelting technology that has been in commercial use for over 20 
years. Conceptual engineering has been performed to develop estimates 
for a commercial plant. A number of process simulations have shown that 
a wide range of carbon feedstocks is viable. The operating cost of 
producing hydrogen via the HydroMax process is less than zero, ^$0.03 
per pound (^$0.066/kg), when the carbon source is petroleum coke priced 
at $10 per ton and byproduct credits are taken for electricity, steam 
and ammonium sulfate fertilizer. When carbon sources with a negative 
net cost are available, such as municipal waste or sewage sludge, it is 
possible to produce hydrogen at even lower costs.

Reduced Energy Demand--HARC's Role

    HARC is actively involved on the other side of the energy equation, 
reducing energy demand. The following programs provide a snapshot of 
HARC's activities.
    Hybrid vehicles. A promising trend is the rapid pace of technology 
development for hybrid engines (gas-electric and diesel-electric) in 
vehicles. Toyota's gas-electric Prius has exceeded expectations as a 
viable mass-market vehicle. Fleet operators are recognizing the life-
cycle fuel cost savings associated with hybrid vehicles. HARC and 
Environmental Defense have teamed up to work with Federal Express to 
introduce diesel-electric hybrid delivery trucks in Texas. FedEx's 
design uses 50 percent less fuel and generates 90 percent less NOX 
emissions than its conventional vehicle. HARC's role is to model market 
penetration scenarios and to predict the air emissions benefits of this 
technology. Having successfully managed the FedEx project, HARC is in 
discussion with other potential partners interested in introducing 
hybrid fleet vehicles in Texas.
    Energy efficient buildings. Nationwide, residences and commercial 
buildings account for approximately one-third of our energy consumption 
and two-thirds of our electricity demand. From the perspective of 
national air quality, almost one-half of SOX emissions, one-quarter of 
NOX emissions, and one-third of greenhouse gas emissions are attributed 
to the energy consumed by buildings. The Department of Energy has 
established the target to have a net zero energy residential building 
system by 2020 and a net zero energy commercial building by 2025. The 
recent growth of the U.S. Green Building Council (USGBC, a Washington 
D.C.-based non-profit) is an important development. In 1995, USGBC 
created the LEEDTM (Leadership in Energy & Environmental Design) Rating 
System in response to the U.S. market's demand for a definition of 
``green building.'' USGBC's membership is growing rapidly and the 
LEEDTM standard is becoming the common measure of green design. We see 
a powerful convergence of clean and renewable energy generation 
technologies, energy efficiency technologies, and green building 
standards as forces that will propel a new era in energy efficient 
building design. Communities will be able to set well-defined goals for 
building efficiency that architects, builders, and occupants can 
understand. HARC has recently hired a national leader in green 
buildings to provide support for institutions in our region that look 
to implement green building concepts to reduce the energy demands of 
buildings.
    Building Systems and Materials. Equipment and systems that provide 
thermal comfort and adequate indoor air quality for residential and 
commercial buildings consume 39 percent of the total energy used in 
buildings nationwide. In the greater Houston area, however, the cooling 
load can be much higher. A recent greater Houston area forecast 
predicts that 35,000 new homes will be added to the regional single-
family home inventory annually for at least the next five years. HARC 
is working with others on a program designed to advance the state-of-
the-art and overcome barriers associated with the use of desiccant 
dehumidification systems for residential applications. The team is in 
the process of designing and testing various options that incorporate a 
desiccant system for humidity control in a residential application. 
Humidity control is a large part of the air conditioning load. 
Incorporating desiccant dehumidification systems into residential HVAC 
systems can impact electrical usage and perhaps even decrease initial 
costs by reducing the size of the conventional HVAC system. Part of the 
project is to verify the energy usage related to desiccant systems, to 
educate the public and to identify the market potential for residential 
applications. Homes can be designed to reduce the costs of ownership by 
increasing energy-efficiency, conserving water and reducing maintenance 
costs through the use of more durable building materials. A key part of 
HARC's Building Systems program will be the integration of sensors, 
information technology, and modeling software to assess and diagnose 
energy performance in buildings.
    Superconductivity. As the application of high temperature 
superconductivity slowly becomes a reality, incremental progress in the 
development of materials will be a key to success. Superconducting 
materials must be engineered to meet rigorous specifications, meeting 
both safety and quality standards. The design and use of low 
temperature and high temperature superconducting materials to store 
energy can greatly enhance power utilization. For 18 years HARC has 
worked with corporate and university partners in the design, 
construction and testing of various energy-storage devices. For 
example, HARC assembled a six-coil array micro-superconducting magnetic 
energy storage (micro-SMES) unit as part of a State contract to 
demonstrate the commercial feasibility of micro-SMES technology. 
University of Houston has been researching high temperature 
superconducting material for approximately 18 years. HARC and UH have 
teamed up to explore and exploit the recent advances in the development 
of high temperature superconducting wire. These advances may be the 
basis for development of coils that can be used in magnetic energy 
storage devices and energy transmission systems that reduce energy 
loss.
    Power Sources. More than 800,000 small (less than 15kW) generators 
are sold in the U.S. each year. Principle uses for these small 
generators are as emergency back-up power units (principally 
residential) and for use as portable (off-grid) electric power in the 
construction industry. The potential to design micro-combined heating 
and power (micro-CHP) systems so that they also function as emergency 
back-up power systems for residential applications may represent a 
significant market opportunity. Residential scale micro-CHP systems may 
recover thermal energy for uses such as space heating, space cooling, 
dehumidification, domestic water heating, and other HVAC and indoor air 
quality (IAQ) functions. HARC is working with potential partners to 
demonstrate the value of micro-CHP technology as a way to reduce peak 
power demand and raise energy efficiency in residences.

    Chairwoman Biggert. Thank you. That was excellent.
    Dr. Smalley.

     STATEMENT OF DR. RICHARD E. SMALLEY, DIRECTOR, CARBON 
NANOTECHNOLOGY LABORATORY, RICE UNIVERSITY; ACCOMPANIED BY DR. 
 HOWARD K. SCHMIDT, EXECUTIVE DIRECTOR, CARBON NANOTECHNOLOGY 
   LAB; AND DR. ROBERT H. HAUGE, TECHNOLOGY DIRECTOR, CARBON 
                       NANOTECHNOLOGY LAB

    Dr. Smalley. Thank you, and welcome to Rice University. In 
fact, welcome to the home of the fullerenes. 1985, in a 
laboratory just a short distance from where we sit, my 
colleagues and I discovered C60, the buckyball, and what has 
turned out to be an infinite new class of geodesic materials, 
molecules made of carbon, which we call the fullerenes. It was 
fundamental research project carried out, in part, with support 
from federal grants from the U.S. Army Research Office, Basic 
Energy Sciences office of the Department of Energy, and the 
National Science Foundation.
    The key graduate student involved in this discovery was a 
local Texas boy, Jim Heath, who is now a full professor at Cal 
Tech and is one of the very top stars worldwide in molecular 
electronics and nanotechnology. In a very important way, Jim 
Heath's graduate research based in the early '80's was part of 
the birth of what we now call nanotechnology.
    Yesterday I was privileged to stand in the Oval Office 
behind the President as he signed the 21st Century 
Nanotechnology Research and Development Act which you on this 
committee did so much to make real. And I thank you for your 
efforts. I believe this will be a watershed event for the 
vitalization of science and technology in our country.
    Energy is the single most important issue facing humanity 
today. Within this decade it is likely that world oil 
production will peak. Within another decade, unless we are 
incredibly lucky, worldwide natural gas production will also 
peak, and we will no longer be able to meet burgeoning 
worldwide demand for energy as China, India, and Africa 
develop. What will be our energy source then? What will fuel 
our cars, ships and planes? Will it be hydrogen? We must find 
an answer.
    Through revolutionary breakthroughs in science, we must 
enable the development of new technologies which will be the 
basis for energy prosperity for ourselves and for the rest of 
the expected to be 10 billion people on this planet. It must be 
clean, and most importantly it must be cheap.
    I am optimistic that this is possible. We can get there. 
But it will take a prodigious effort, and nanotechnology, I 
suspect, will be a big part of that effort.
    We are engaged here at Rice University in a particular sort 
of nanotechnology research that will likely play a major role 
in future energy. A tube-shaped member of the fullerene family, 
molecularly precise objects we here at Rice lovingly call 
``buckytubes'' are the current obsession of my research group 
and many others both here at Rice and around the world.
    These structures are composed of a single sheet of carbon 
wrapped around to form a seamless tube, rather like a soda 
straw. But this soda straw is smaller than the diameter of a 
molecule of DNA. It is made of the strongest one-atom-thick 
membrane that can exit in this universe: the hexagonal 
``chicken wire'' network of carbon atoms that you find in 
graphite. Capped at either end by a half of a buckyball, these 
single-walled carbon nanotubes are perfect fullerenes. They do 
deserve the name of tubes.
    They have amazing properties. They are the strongest fibers 
that can be made, 30-100 times stronger than steel. They 
conduct heat along their length better than diamond, which 
hitherto was the all-time record holder for thermal 
conductivity. They are the best conductors of electricity of 
any molecule ever discovered.
    We are engaged here at Rice in learning how to make these 
buckytubes, in discovering what makes them be what they are, 
and in developing applications. We like to think of them as a 
new miracle polymer, like Nylon was in its day, or Teflon, or 
polypropylene, or Kevlar. And we are convinced that ways can be 
found to make buckytubes on a large industrial scale much like 
these earlier, now well-established polymers.
    These single walled carbon nanotubes are uniquely specified 
by two small integers, usually called n and m. The diameter is 
roughly proportional to the sum, n+m. The electronic 
properties, however, are determined by the difference of these 
two integers, n^m. If n and m are the same, then n^m = 0 and 
the tube conducts electrons like a perfect metal. In the trade 
it is called and ``arm-chair'' tube. Electrons move down this 
tube as a coherent quantum particle, traveling down the tube 
much like a photon of light travels down a single mode optic 
fiber. Individual armchair tubes can conduct as much as 20 
micro-amps of current. This doesn't sound like much until you 
realize that his little molecular wire is only one nanometer in 
diameter. So a half inch thick cable made of these tubes 
aligned parallel to one and packed side-by-side like pipes in a 
hardware store, would have over 120 trillion conductors packed 
side-by-side.
    If each of these tubes carried only one micro-amp, only two 
percent of what has measured in the laboratory and many places 
as being its maximum of 25, only two, one on micro-amp, this 
half inch thick cable of carbon, amass a density of one-sixth 
of copper, would be carrying one hundred million amps of 
current. Fabricating such a cable, we call it the ``armchair 
quantum wire,'' is a prime objective of our work.
    There are two other types of buckytubes. One is a direct 
band-gap semiconductor in one dimension, with a band-gap very 
similar to silicon or actually much more similar gallium 
arsenide, a direct band-gap semiconductor. We have recently 
discovered that these buckytubes emit light, and have worked 
out exactly the band gap as a function of n and m.
    The other type of buckytube is also a semiconductor, but 
has a tiny band-gap similar in energy to microwaves. This 
behavior occurs whenever n^m is an exact multiple of three.
    There are now four principal ways known for producing 
buckytubes. Three of these were discovered here at Rice 
University a few block away. Currently these tubes are being 
produced here at Rice, in fact right as we speak, by a process 
we call ``HiPco'' at a rate of about 25 grams per day in a 
research reactor here at Rice, and in pounds per day right now 
in a variety of related processes in a small nanotechnology 
start up company, Carbon Nanotechnologies, Inc., which was spun 
out of Rice about four years ago, and is located near here on 
the outskirts of Houston.
    At Rice we are developing yet a new process for production 
of buckeytubes where we will grow the tubes from seeds, short 
lengths of previously selected buckytubes where we have 
attached nanocatalyst particles to the open ends. The process 
that we are developing produces long tubes which are exact 
clones of the tubes from which the seeds were made. This 
cloning process should give us control of n and m for the first 
time.
    When we succeed, the impact on energy technologies may be 
immense. Running the cloning reactor with arm-chair seeds we 
should be able to make pounds of all armchair buckytubes. Using 
a process we have been developing for the past few years with 
support from the Office of Naval Research, we expect to be able 
to spin these nanotubes into continuous fibers. This process 
resembles the spinning of Kevlar. But here instead of forming a 
strong electrical insulator like Kevlar, the all-armchair 
buckytube fiber will be an electrical conductor. We expect the 
conductivity to be extremely high, both because of the quantum 
light-pipe behavior as the electrons traveling down the 
individual tubes, but also because of facile resonant quantum 
tunneling of the electron from tube to an adjacent tube.
    To get a feeling for this bizarre quantum tunneling 
behavior, imagine that you are sitting on a subway train in New 
York City late at night. You're sleepy and for a moment you nod 
off. But there is another exactly identical train running 
parallel to you and when you wake up you wake up on this other 
train. So it is when electrons quantum tunnel from tube to tube 
in these arm-chair quantum wires. Welcome to the amazing world 
of nanotechnology!
    Running a cloning buckytube reactor with seeds having a 
direct band-gap of, say, 1 eV, you make pounds of tubes that 
are just right for making single molecule buckytube 
transistors. Or, more interestingly for energy applications, 
you make the tubes so that they are optimized as nanoscale 
antenna for the use in the conversion of sunlight.
    We have collaborated with the National Renewable Energy 
Laboratory and Air Products in a proposal to the DOE to 
establish a Virtual Center for Carbon-Based Hydrogen Storage. 
Our role in this collaboration, our role here at Rice, is to be 
the principal laboratory that develops single walled carbon 
nanotubes (buckytubes)----
    Chairwoman Biggert. If you could close now.
    Dr. Smalley. Stop? Okay. Optimized for storage of hydrogen.
    Chairwoman Biggert. We will hear more about buckeytubes in 
the questions.
    Dr. Smalley. We believe that this cloning process will 
provide the tubes that are going to be critical for this 
function.
    Thank you.
    [The prepared statement of Dr. Smalley follows:]

                Prepared Statement of Richard E. Smalley

    Welcome to the home of the fullerenes. In 1985, in a laboratory 
just a short distance from where we meet today, my colleagues and I 
discovered C60, the buckyball, and what has turned out to be an 
infinite class of new geodesic molecules of carbon, the fullerenes. It 
was fundamental research carried with support from federal grants from 
the U.S. Army Research Office, the Basic Energy Sciences office of the 
Department of Energy, and the National Science Foundation. The key 
graduate student involved in this discovery was a local Texas boy, Jim 
Heath, who is now a full professor at Cal Tech and is one of the top 
stars worldwide in molecular electronics and nanotechnology. In a very 
important way, Jim Heath's graduate research was part of the birth of 
what we now call nanotechnology.
    Yesterday I was privileged to stand in the Oval Office behind the 
President as he signed the ``21st Century Nanotechnology Research and 
Development Act'' which you on this committee did so much to make real. 
I thank you for those efforts. I believe this will be a watershed event 
for the vitalization of science and technology in this country.
    Energy is the single most important issue facing humanity today. 
Within this decade it is likely that worldwide oil production will 
peak. Within another decade, unless we are incredibly lucky, worldwide 
natural gas production will also peak, and we will no longer be able to 
meet burgeoning worldwide demand for energy as China, India, and Africa 
develop. What will be our energy source then? What will fuel our cars, 
ships and planes? Hydrogen? We must find an answer.
    Through revolutionary breakthroughs in science, we must enable the 
development of new technologies which will be the basis for energy 
prosperity for ourselves and the rest of what will likely be 10 billion 
people on this planet. It must be clean, and most importantly it must 
be cheap.
    I am optimistic that this is possible. We can get there. But it 
will take a prodigious effort, and nanotechnology will be a big part of 
that effort.
    We are engaged here at Rice University in a particular sort of 
nanotechnology research that will likely play a major role in future 
energy. A tube-shaped member of the fullerene family, molecularly 
precise objects we here at Rice lovingly call ``buckytubes'' are the 
current obsession of my research group and many others both here at 
Rice and around the world.
    These structures are composed of a single sheet of carbon wrapped 
around to form a seamless tube, rather like a soda straw. But this soda 
straw is smaller in diameter than a molecule of DNA, and it is made of 
the strongest one-atom-thick membrane that exits in the Universe: the 
hexagonal ``chicken wire'' network of carbon atoms in a sheet of 
graphite. Capped at either end by a half of a buckyball, these single-
walled carbon nanotubes are perfect fullerenes. They deserve the name 
buckytubes.
    They have amazing properties. They are the strongest fibers that 
can be made, 30-100 times stronger than steel. They conduct heat along 
their length better than diamond, which previously was the all-time 
record holder for thermal conductivity. They are the best conductors of 
electricity of any molecule ever discovered.
    We are engaged here at Rice in learning how to make these 
buckytubes, in discovering just what makes them what they are, and in 
developing applications. We like to think of them as a new miracle 
polymer, like Nylon was in its day, or Teflon, or polypropylene, or 
Kevlar. And we are convinced that ways can be found to make buckytubes 
on a large industrial scale much like these earlier, now well-
established polymers.
    These single walled carbon nanotubes are uniquely specified by two 
small integers, n and m. The diameter is roughly proportional to the 
sum, n+m. The electronic properties, however, are determined by the 
difference, n^m. If n and m are the same, then n^m = 0 and the tube 
conducts electrons like a perfect metal. In the trade it is called and 
``arm-chair'' tube. Electrons move down this tube as a coherent quantum 
particle, traveling down the tube much like a photon of light travels 
down a single mode optic fiber. Individual armchair tubes can conduct 
as much as 20 micro-amps of current. This doesn't sound like much until 
you realize that his little molecular wire is only one nanometer in 
diameter. A half inch thick cable made of these tubes aligned parallel 
to each other along the cable, would have over 100 trillion conductors 
packed side-by-side like pipes in a hardware store. If each of these 
tubes carried only one micro-amp, only two percent of its capacity, the 
half inch thick cable would be carrying one hundred millions amps of 
current. Fabricating such a cable--we call it the ``armchair quantum 
wire''--is a prime objective of our work.
    There are two other types of buckytubes. One is a direct band-gap 
semiconductor in one dimension, with a band-gap very similar to silicon 
or gallium arsenide. We have recently discovered that these buckytubes 
emit light, and have worked out exactly the band gap as a function of n 
and m. The other type of buckytube is also a semiconductor, but has a 
tiny band-gap similar in energy to microwaves. This behavior occurs 
whenever n^m is an exact multiple of three.
    There are now four principal ways known for producing buckytubes. 
Three of these were discovered here at Rice University. Currently these 
tubes are being produced using a process we call ``HiPco'' at a rate of 
about 25 grams per day in research reactor here at Rice, and in pounds 
per day by a variety of related processes in a small nanotechnology 
start up company, Carbon Nanotechnologies, Inc., spun out of Rice 
nearly four years ago, and located near here on the outskirts of 
Houston.
    At Rice we are developing a new process for production where we 
will grow the tubes from seeds, short lengths of previously selected 
buckytubes where we have attached nanocatalyst particles to the open 
ends. The process then produces long tubes which are exact clones of 
the tubes from which the seeds were made. This cloning process should 
give us control of n and m for the first time.
    When we succeed, the impact on energy technologies may be immense. 
Running the cloning reactor with arm-chair seeds we should be able to 
make pounds of all armchair buckytubes. Using a process we have been 
developing for the past few years with support from the Office of Naval 
Research, we expect to be able to spin these nanotubes into continuous 
fibers. This process resembles the spinning of Kevlar. But here instead 
of forming a strong electrical insulator like Kevlar, the all-armchair 
buckytube fiber will be an electrical conductor. We expect the 
conductivity to be extremely high, both because of the quantum light-
pipe behavior of electrons traveling down individual arm chair 
buckytubes, and because of facile resonant quantum tunneling of the 
electron from tube to tube. To get a feeling for this bizarre quantum 
behavior, imagine you are traveling on a subway train in New York City 
late at night. You're sleepy and for a moment you nod off. But there is 
another exactly identical train running parallel to you and when you 
wake up you are on this other train. So it is when electrons quantum 
tunnel from tube to tube in these arm-chair quantum wires. Welcome to 
the amazing world of nanotechnology!
    Running a cloning buckytube reactor with seeds having a direct 
band-gap of 1 eV, you make pounds of tubes that are just right for 
making single molecule buckytube transistors. Or, more interestingly 
for energy applications, you make the tubes so they are optimized as 
nanoscale antenna for use in the conversion of sunlight.
    We have collaborated with the National Renewable Energy Laboratory 
and Air Products in a proposal to the DOE to establish a Virtual Center 
for Carbon-Based Hydrogen Storage. Our role in this collaboration is to 
be the principal laboratory that develops single walled carbon 
nanotubes (buckytubes) optimized for storage of hydrogen. The challenge 
here is to control the diameter of the tube so that the absorption 
energy of hydrogen on the outside and inside of the tube is high enough 
to give the desired storage capacity at an acceptable pressure, without 
being so high that it takes too much energy to the hydrogen back off 
again. If the absorption behavior of the optimized tube is acceptable, 
then the challenge is to develop a process cable of producing this 
material at a cost of less than $10 per pound. We believe the new 
cloning process is the path to accomplish this goal.
    Finding an answer to the storage problem for hydrogen-fueled cars 
and truck is a crucial challenge. If there exists a material, X, which 
we can put in our gas tanks that will act like a magic sponge and allow 
us to fill up on hydrogen with the same sort of experience we now have 
with gasoline, we need to find it. Single walled carbon nanotubes are 
the leading candidate for this material X.
    However, we cannot change the laws of physics. Buckytubes, even 
with perfectly optimized n and m may not be good enough. And there may 
be no better material for the sponge. Material X may not be possible in 
our universe.
    In that case, there can still be a hydrogen fueled vehicle, but the 
gas tank will have to be a pressurized tank for small vehicles, or a 
cryogenic liquid hydrogen tank for large vehicles, ships, and planes.
    Buckytubes will be critically important to the hydrogen economy 
even then. They will be used in super-strong composites in the bodies 
of the vehicles to make them lighter. They will be used in the fuel 
cells, and batteries, and super capacitors of the electric drive 
system. If the arm-chair quantum wire turns out in practice to be as 
good a conductor as we imagine, it will be used to replace copper in 
the wiring harnesses of cars and airplanes.
    The biggest challenge with hydrogen is not storage, it is 
production and transport to the place of use. Here too it may well be 
that single walled carbon nanotubes will play a pivotal role. 
Particularly important would be the use of armchair quantum wires in 
long distance electrical energy transmission. If we could efficiently 
transmit hundreds of gigawatts of electrical power over continental 
distances, and develop low cost local energy storage technologies, we 
could transform the electrical power grid and go a long way to solving 
our energy challenge. Local storage capable of 12 hour energy buffering 
would vastly lower the peak power demands, and enable solar and wind 
power to become a dominant provider. Long distance energy transmission 
via wire would allow vast solar farms in the great western deserts to 
play a big role in the Nation's energy needs. It would also allow power 
to be brought from clean coal plants in Wyoming, and nuclear power from 
remote sites where the necessary security is assured. Hydrogen would 
then be primarily produced locally at homes, businesses, and filling 
stations, and converted back into electrical power locally.
    All these notions for transformation of the energy grid can only 
come into being through revolutionary advances in the underlying 
physical science and technology of materials. When after many decades 
this is all done and we look back to write the technological history of 
the 21st century, I suspect will find that nanotechnology (and 
buckytubes) played a central role.

                    Biography for Richard E. Smalley

Personal

Birth Date: June 6, 1943      U.S. Citizen

Children:  Chad R. Smalley (born June 8, 1969), Preston C. Smalley 
(born August 8, 1997)

Education

Hope College, Holland, Michigan, 1961-1963

B.S. (Chem.), University of Michigan, Ann Arbor, Michigan, 1965

M.A., Princeton University, Princeton, New Jersey, 1971

Ph.D., Princeton University, Princeton, New Jersey, 1973

Industrial Positions

Research Chemist, Shell Chemical Company, 1965-1969

Chairman of the Board and Co-Founder of Carbon Nanotechnologies, Inc., 
        2000-present

Academic Positions

Graduate Research Assistant, Department of Chemistry, Princeton 
        University (with E.R. Bernstein), 1969-1973

Postdoctoral Research Associate, The James Franck Institute, University 
        of Chicago (with D.H. Levy), 1973-1976

Assistant Professor, Department of Chemistry, Rice University, 1976-
        1980

Associate Professor, Department of Chemistry, Rice University, 1980-
        1981

Professor, Department of Chemistry, Rice University, 1981-1982

Gene and Norman Hackerman Professor of Chemistry, Rice University, 
        1982-present

Professor of Physics, Rice University, 1990-present

University Professor, Rice University, 2002-present

Honorary Degrees

Doctor honoris causa, University of Liege, Liege, Belgium, 1991

Doctor of Science, University of Chicago, 1995

Doctor of Science, University of Michigan, 1997

Doctor of Science, University of Pennsylvania, 2002

Fellowships, Awards, and Prices

Harold W. Dodds Fellow, Princeton University, 1973

Alfred P. Sloan Fellow, 1978-1980, Fellow of the American Physical 
        Society, 1987

Irving Langmuir Prize in Chemical Physics, 1991 (Awarded by American 
        Physical Society)

Popular Science Magazine Grand Award in Science & Technology, 1991

APS International Prize for New Materials, 1992 (Joint with R.F. Curl 
        and H.W. Kroto)

Jack S. Kilby Award, 1992 (North Dallas Chamber of Commerce)

Ernest O. Lawrence Memorial Award, 1992 (U.S. Department of Energy)

Welch Award in Chemistry, 1992 (Robert A. Welch Foundation)

Auburn-G.M. Kosolapoff Award, 1992 (Auburn Section of American Chemical 
        Society)

Southwest Regional Award, 1992 (American Chemical Society)

William H. Nichols Medal, 1993 (New York Section of American Chemical 
        Society)

The John Scott Award, 1993 (The City of Philadelphia)

Hewlett-Packard Europhysics Prize, 1994 (European Physical Society)

Harrison Howe Award, 1994 (Rochester Section of the American Chemical 
        Society)

Madison Marshall Award, 1995 (North Alabama Section of the American 
        Chemical Society)

The Franklin Medal, 1996 (The Committee on Science and the Arts of The 
        Franklin Institute)

The Nobel Prize in Chemistry, 1996 (Royal Swedish Academy of Sciences)

Rice University Homecoming Queen, 1996 (Rice University Undergraduates)

Distinguished Civilian Public Service Award, 1997 (Department of the 
        Navy)

American Carbon Society Medal, 1997

Top 75 Distinguished Contributors to the Chemical Enterprise, 1998 
        (Chemical & Engineering News)

Glen T. Seaborg Medal, 2002 (UCLA)

Memberships

American Chemical Society, Division of Physical Chemistry

American Physical Society, Division of Chemical Physics

American Institute of Physics, American Association for the Advancement 
        of Science

Materials Research Society, Sigma Xi

National Academy of Sciences, 1990

American Academy of Arts and Sciences, 1991

Other

Chairman, Rice Quantum Institute, 1986-1996

Scientific Advisory Board, CSIXTY, Inc., 1995-present

Scientific Advisory Board, NanoSpectra Biosciences, 2002

Scientific Advisory Committee, Center for Nanophase Materials Sciences 
        (CNMS), 2002

Scientific Advisory Committee, Center for Integrated Nanotechnologies' 
        (CINT), 2002

Director, Rice Center for Nanoscale Science & Technology (CNST), 1996-
        2001

Director, Carbon Nanotechnology Laboratory, 2002-present

    Chairwoman Biggert. Thank you.
    Dr. Holtzapple.

   STATEMENT OF DR. MARK HOLTZAPPLE, DEPARTMENT OF CHEMICAL 
               ENGINEERING, TEXAS A&M UNIVERSITY

    Dr. Holtzapple. Well, howdy y'all.
    What I would like to talk about two patents that I have 
been working on for about 20 years. The first is biofuels and 
the other is a StarRotor Engine.
    And first I am going to start with the biofuels. This is an 
ideal process, an imagine process that would volume as I've 
shown here as a tree, put it into some sort of a biodefinery 
and make fuels. Now, when you burn that biomass, you do make 
CO<INF>2</INF>, but due to the process of photosynthesis, you 
fix that carbon dioxide and it simply cycles. So the idea is to 
have your cars run as solar powered cars.
    Now currently you are driving solar powered cars, it is 
just old solar energy. It is about 100 million years old. The 
idea here is to drive new solar energy.
    Now let's envision the ideal properties of such a process. 
The first thing I'd like to do is focus on the biomass itself. 
What we would like to do is be able to use all kinds of biomass 
such as trees, grass, agricultural resides, energy crops, 
garbage, sewage sludge and animal manure. And it turns out 
there is a lot of this stuff around, a lot of waste.
    If we took all the biowaste in our states and converted to 
alcohol fuels, it is about 135 billion gallons. And to put that 
into perspective, U.S. gasoline consumption is about 130 
billion gallons and diesel is 40 billion gallons. So it has the 
potential to supply a significant portion of our liquid 
transportation fuels.
    We would also like to be able to use high productivity 
feedbacks. Like here I am showing the productivity of corn in 
dry times per acre per year. You see that it is only about 3.4. 
So if we were to go to something like sweet sorghum, it is 20. 
If we go to something called energy cane it is 30. So 
significantly more biomass being produced in the form of 
sorghum or energy cane.
    To look at sweet sorghum, this is a single year's growth. 
It grows in about 35 states including Illinois, so it is a very 
prolific crop.
    An energy cane, this is to me a phenomenal pictures. These 
are two full grown men standing next one year's growth of 
energy cane. This happens to be in Puerto Rico. It is a 
phenomenal productive crop. And to get some sense of how long 
it is, here they are standing next to it while it is cut. And 
that is a single stock that is stretching along the length of 
that truck.
    The other thing we would like to do is get the farmer's a 
lot of income. I am going to talk of those corn grains, the 
lowest is about $340 per acre. But if they grew sweet sorghum, 
they could get $730 per acre. And if they energy cane, they 
could get over $1,000 per acre gross income. So we could really 
up the farmers using this kind of technology.
    And if you look at the environment impact of growing 
various crops in terms of the water, fertilizer, pesticides, 
herbicides and sil erosion, what you see is that sweet sorghum 
and energy cane have a low environmental impact compared to 
growing corn grain.
    Next I would like to talk about the process itself, what 
would be the idea properties of the process. And ideally you 
would like to have no sterility, because it costs money to have 
sterility.
    It wouldn't bypass genetically modified organisms.
    You want like to be adaptable to different kinds of 
feedstocks.
    You do not want to have pure cultures.
    You would like to be cheap.
    You do not want to have enzymes.
    You would like high product yields.
    You do not want to have to add vitamins.
    And you do not want to have co-products that carry the 
process.
    And next I would like to focus on what are the ideal 
properties of the fuel itself. And what I am showing here is 
various features of fuels: The octane rating, volatility, the 
ability to ship through pipelines, energy content, heat of 
vaporization and damages to ground water. And you see that MTBE 
is very good on almost all of these, but there is a lot of 
concern about ground water damage. But if we go with mixed 
alcohols we see that it does not have any of the problems that 
are associated with the other fuels.
    So we have these ideal properties. Is there a biofuel 
technology with those properties? And you probably know the 
answer to that question. The answer is yes. It is a process 
that I have been working on for 12 years now called the MexAlco 
process. And the way it works is you take your biomass and 
treat it with lime to make it digestible. And then you ferment 
that lime treated biomass with a mixed culture of organisms. 
They may call it carboxylate salts, such as calcic acetate, 
remove the water. When you heat those salts you get ketones 
such as acetones. And if you add hydrogen you get alcohol such 
as isopropanol.
    So literally think about this. You could take manure and 
turn it into a salt with vinegar, nail polish remover and 
rubbing alcohol. So the acute alkamine is turning lead into 
gold can be done with this kind of process.
    Another important point to be made is that hydrogen goes 
into process. The hydrogen could be made from coal, let us say 
where you sequester the carbon dioxide but the energy content 
of the coal shows up in hydrogen. And you can think if this 
biofuel as a hydrogen carrier that does not have a negative 
impact on the environment.
    Just to point out how they do some of these steps. I am 
going to go into all the technology. The pretreatment and 
fermentation is done this way. You have a rubber lined pit with 
about three feet of gravel. You just pile up the biomass with 
line and calcium carboxylate. And for the first month you blow 
air up through the pile. That takes out the living make it 
digestible. And then you literally throw dirt onto the pile, in 
fact the best dirt is from Galveston that we have found so far. 
And at the bottom the pile just rots, and when it rots it turns 
into calcium acetate, which we harvest into liquid and send on 
for further processing.
    The next step in the process is the dewatering. And here 
what you do is you put actmine on your salt solution with steam 
that comes out of the compressor, condenses and causes more 
water to vaporize.
    And I just want to make as a side note, this could also be 
used to desalinate sea water economically.
    And what are the economics of our process? What I'm showing 
here is the feedstock cost, there's that $40 per ton that I 
used before. And you see that if we paid the farmers $40 a ton, 
you could sell fuels for about .75 a gallon. So it's a very 
attractive process.
    And notice I have some negative costs if you are using 
things like garbage or sewage sludge; people pay to get rid of 
that stuff.
    The idea is to have an energy plantation. Here we have a 
central facility with 15 mile radius. It's 50 percent planted. 
It turns out that that factory has the capacity of half an oil 
refinery, and it can function forever as long as the sun is 
shining.
    If we were to satisfy 100 percent of U.S. gasoline needs by 
growing energy cane in Brazil at current engine efficiency, 
that is the amount of land area required. If we double our 
engine efficiency, that's the amount required. And if we 
triple, that's the amount required.
    And if we were to grow sweet sorghum in the United States, 
these are the analogous figures.
    So what I would like you to envision is taking this amount 
of land area, assuming we can triple energy efficiency, and 
kind of stretch it along the coast. That means that the liquid 
fuels would be transported maybe 100 miles or so to the coast 
by barge. It would go to Houston and then through the pipelines 
to distribute the fuels. We could get it to the customer in an 
economical way.
    Now how do we increase the efficiency of engines? It turns 
out that hydroelectrics are already on the market. They've 
doubled engine efficiency. And I think through better engines, 
we can double or even quadruple the efficiency of engines.
    And so what I would like to so is show the StarRotor Engine 
which we have been working on now for about five or six years. 
The way it works is you take air out of one atmosphere. It 
compresses here to six atmospheres. You preheat it, and then 
you add your fuel. It expands in this region right here. And 
finally you do exhaust one atmosphere of gas. It is still 
fairly hot, so you capture the waste energy and cycle it back 
into the engine.
    Now it so happens that I brought along here--at the end you 
are certainly welcome to come up and give it a crank and see 
how it goes.
    And we have been doing this now for a while. And here is 
the prototype which we started testing in September. This 
happens this is just the compressor portion. There is an 
electric motor at the end. And here it is. You can see it 
rotating.
    And one of the key points I wanted to make is that there is 
no physical contact between these rotating elements, so there's 
no tension and wear. It should have an extremely long life this 
engine.
    The properties of this engine are very efficient. At full 
size power you should be able to get about 100 miles per 
gallon.
    Almost no pollution with low maintenance,long life, low 
cost. Very high power density. No vibration to speak of and any 
fuel that you want. It does not care what the fuel.
    And so the benefits of adopting these technologies are: 
That it could reduce waste such as garbage and sewage sludge; 
have cleaner air for cities like Houston; develop me markets 
for agriculture.; have energy security where we don't have to 
import over half our oil; improve our balance of payments. 
Currently we're spending $2 billion a week on import of oil. We 
could eliminate that.
    We could address global warning; address the impending 
energy shortage; have more flexible international relations.
    I ask why are we such good friends with Saudi Arabia? And 
everybody knows the answer to that question.
    And then lastly, we can help developing nations pull 
themselves up by the bootstraps.
    So what I would like to do is propose some legislative 
action to make all this happen. The first thing is that the 
Energy Bill has a tax credit for ethanol. What I would suggest 
is we simply erase the word ethanol and put biofuel there so 
that all biofuels could compete on an equal basis with the same 
amount of subsidy.
    Also if we want to use things like garbage as a feedstock, 
I do not know of any chemical company or oil company that would 
touch it because they do not want the potential liability that 
comes along with handling these. If they could somehow be 
protected from liability of handling these wastes, then it is 
extremely attractive feedstock.
    And lastly, since I am a professor, I have to say give more 
money for research.
    [The prepared statement of Dr. Holtzapple follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairwoman Biggert. Mr. Hennekes.

   STATEMENT OF ROBERT HENNEKES, VICE PRESIDENT, TECHNOLOGY 
               MARKETING, SHELL GLOBAL SOLUTIONS

    Mr. Hennekes. Well, thank you for letting me speak today. I 
would like to give my appreciation to both of you for coming 
and giving Shell the chance to say a few words to Rice 
University and the rest of you ladies and gentlemen for giving 
us a few minutes.
    What I would like to do is just take a couple of minutes to 
tell you about some of the things that we at Shell are doing in 
terms of research and development, and let you know about some 
of the ways that we are trying to help the environment and 
provide fuel and energy for the future.
    When I was given the opportunity to speak, we first thought 
that because Shell happens to be a provider of things like 
gasoline and diesel. Hopefully, most of you have bought some of 
our product. Any who have not? Okay. That's a good sign.
    And so we can talk a lot about oil and gas and fuels, but 
we were asked to talk about non-fuels, non-oil and gas. And so 
what I chose to talk a little bit about is those that are 
starred. First there's coal gasification. We'll talk a little 
bit about that and how it fits in with CO<INF>2</INF> 
sequestration.
    Secondly, we are going to talk about metallurgy and 
innovation ways of looking at the metallurgy and trying to find 
any faults in that metallurgy and make sure that structural 
materials stay standing for as long as we desire them to stand.
    I would be happy to talk about future fuels, lubricants, 
future catalysts, but that really wasn't what the intention of 
this was to do.
    First of all, Shell Global Solutions, where I happen to 
work, maybe nobody's heard of that before. That is okay. We are 
a wholly owned subsidiary of Shell Oil Company. Hopefully, you 
have heard of Shell Oil. All the folks that are on this diagram 
you can see are the customers of Shell Global Solutions. To put 
it bluntly, we are the research service and development people 
for all of Shell. And so the oil products folks, the 
renewables, the exploration production all hire us to come in 
and do work and research and development for them.
    Shell Global Solutions also happens to do work outside of 
the Shell companies. We started doing that about five years 
ago. So we can actually be hired out by other oil companies, by 
other research institutes in places such as that to do research 
and service for the rest of the world.First, let's talk about 
coal gasification. It's a shame that our former Governor is not 
here, because I was going to send him back to school for a 
third time and do a little bit of chemistry.
    Everybody understand complete combustion. Complete 
combustion is when you burn wood, coal, gasoline or anything 
else you choose to burn. You have a lot of oxygen that's in the 
air and you go ahead and burn that and its makes CO<INF>2</INF> 
and water.
    The idea is to take anything, biomass, coal from the great 
state of Illinois. We have worked on some projects there. And 
not burn it all the way, but partially oxidize it. So only add 
enough oxygen where the fuel is ready to be burned in a large 
turbine later one. When you do that, you get a combination of 
carbon monoxide and hydrogen. You can then through the same 
shift reaction that you talked a little bit about previously, 
take some of that CO make additional hydrogen and you get a 
very pure stream of CO<INF>2</INF>. You can take that CO<INF>2</INF> 
and sequester it. Currently for a company like Shell what we 
like to do is put it into a well some place where we're using 
CO<INF>2</INF> for tertiary recovery, those sort of things. You 
could even take the CO<INF>2</INF> and put it in Coca Cola or 
other products such as that. But if you do want to take the 
CO<INF>2</INF> and sequester it, Shell Global Solutions is 
working on a very large program with other industry folks to 
try and figure out how to sequester for reasonable price and 
minimize the amount of CO<INF>2</INF> going to the atmosphere. 
Okay.
    Everybody understand the chemistry upon the board? Anybody 
who doesn't, raise their hand. Okay.
    This is a gasification reactor. Just so you get a feel for 
it. Why is it so complex looking? Very simple. This process 
runs at about 2700 degrees Fahrenheit. 2700 degrees Fahrenheit 
is not something I have any concept of what it is. I've been by 
the reactors. I've seen them operate. But 2700 degrees is so 
high, it is absolutely phenomenal to me. So we have very 
talented metallurgist, people such as that to design this 
reactor so it is able to contain those reactions and give us 
the carbon monoxide and hydrogen that we need.
    When we do the gasification of either the biomass, the 
municipal waste, the coal, those sort of things it is a very, 
very clean process. That is because it is still in a reduced 
state. We have not really oxidized it. It is in a reduced 
state. And we can clean up the sulphur almost completely. We 
can get rid of the NOXs. When a typical material burns, it will 
make NOX of hundreds of parts per million. When you burn sin 
gas, it comes down to 10 to 20 PPM. We have almost no 
particulates because of the process at all.
    The things that we are trying to do in terms of research 
still is how can we minimize the CO<INF>2</INF> and how can we 
sequester it? How can we grab the mercury out of the coal so 
that we do not pollute the lakes and streams? How do we make 
the burners, the gasifiers and the quench systems all more 
reliable. Those are all the kind of research that we are doing 
to try and make this process better. Okay.
    I will take questions later on the gasification process.
    For metallurgy, one of the things that is very important to 
a company like Shell is that our plants run and run as long as 
we desire them to run, and then shut down when we want them to 
shut down. So one of the devices we have developed is what is 
called a pulsed eddy current device. And we actually can use it 
outside of the refinery system.
    This, for example, was a bridge and you could not tell 
where the cracks in the under carriage were occurring. But 
using this pulsed eddy current device you can actually find all 
of the cracks, okay. And that's the device. And that's a 
gentleman looking at the surface to determine the cracks, where 
they are and you can tell if that bridge or oil refinery or rig 
has corrosion and has problems and needs to be shut down.
    What does this do? It allows us to avoid shutdowns when we 
do not want. It allows us to keep from flaring and putting 
hazards material into the atmosphere.
    And what you see in front of you is simply a gentleman who 
is trying to find all the cracks that have already been found 
by the bridge company. So what they did is they gave us a 
challenge. They said we do not believe you Shell. We do not 
think you can do this. They went in, and all we were allowed to 
do was stay on the top and move our device and find the cracks. 
We found all of them. After we proved that out, we went back to 
the bridge that was in place, showed them where all the cracks 
were. Those were repaired, and we were back in shape. Okay.
    That's the kind of research that Shell is doing. And we are 
more than happy to answer questions later on about that or any 
other item Shell might be asked about.
    Thanks.
    [The prepared statement of Mr. Hennekes follows:]

                 Prepared Statement of Robert Hennekes

Introduction

    Madam Chair and Members of the Subcommittee, my name is Robert 
Hennekes. I am Market Development Manager, Gas & LNG, for Shell Global 
Solutions (U.S.) Inc. and a Vice President of Technology Marketing for 
Shell Global Solutions, a network of independent technology companies 
that specialize in cutting-edge technologies. I would like to talk a 
little more about some of those technologies and how they might 
contribute to meeting the Nation's energy needs in an efficient and 
environmentally responsible way.
    Shell Global Solutions (U.S.) Inc., a wholly-owned subsidiary of 
Shell Oil Company, is located at the Westhollow Technology Center in 
Houston, Texas.
    The Shell Global Solutions network is comprised of Shell Global 
Solutions (U.S.) Inc., Shell Global Solutions International B.V. 
(operating out of The Hague and Amsterdam (Netherlands), and with 
sister companies in Thornton (England), Petit Couronne (France), 
Hamburg (Germany), Kuala Lumpur (Malaysia) and Singapore). Each 
specializes in its own areas of expertise, and, through service 
agreements, support each other with research data, operational 
experience, technical know-how and staff who are top professionals in 
their own disciplines. When a client contacts any of the companies in 
Shell Global Solutions, it benefits from the resources of all of them.

Our Experience

    I am delighted to have the opportunity to share a little of what we 
do here in Houston as a center of excellence for technical service in 
non-traditional energy issues. Shell Global Solutions (U.S.) Inc. 
provides technical services to third parties, Shell-owned companies and 
Shell joint ventures including gas transmission companies, chemical and 
LNG plants, hydrocarbon distribution companies and oil exploration and 
production facilities.
    Shell Global Solutions (U.S.) Inc. provides services in three 
different areas:
    First, we offer Shell technology and successful practices through 
comprehensive Technical Service Agreements (TSAs). This comprehensive 
set of services takes the Shell know how, experience, and successful 
practices and brings it to a company to help increase its margins and 
efficiencies and to lower its cost structure.
    Second, we provide specific services designed to satisfy a 
companies' individual needs. One example would be providing assistance 
in a companies' review of its LNG facilities.
    Finally, we license industry-leading technologies in gasification, 
and risk based pipeline assessment methodology.

Shell Licensed Gasification

    Gasification is a very versatile process that converts a variety of 
carbon-containing feedstocks like coal, petroleum coke, lignite, oil 
distillates, residues and natural gas into synthesis gas by partial 
oxidation with air or oxygen. Shell has developed two dedicated 
gasification technologies, the Shell Gasification Process (SGP) for 
liquid and gaseous feedstocks and the Shell Coal Gasification Process 
(SCGP) for solid feedstocks, such as coal, lignite and petroleum coke. 
Both processes have been successfully applied commercially. 
Gasification projects select Shell technologies due to their high 
efficiency, versatile applicability, and performance, in addition to 
the technological know-how and operational experience of Shell Global 
Solutions.

Shell Gasification Process
    Shell originally developed the Shell Gasification Process (SGP) to 
provide syngas for the chemical industry, e.g., for the production of 
fertilizer. The syngas can also be used for its combustion value. Feed 
flexibility, environmental performance, and the ability to use low cost 
feedstock are important drivers that support further application of 
this technology for power generation and hydrogen manufacturing in 
refineries.
    In the early years, feeds were usually rather light distillates, 
but residues became more attractive due to their low cost. Adjustments 
to the process, such as the development of an improved Soot & Ash 
Removal Unit, extended the technology to the application for the 
manufacture of syngas from refinery-derived heavy residues such as 
those from vacuum distillation, visbreaking and solvent de-asphalting.
    The main processes in a gasification system are the gasification, 
in which the feedstock is reacted with oxygen and steam to raw syngas, 
the syngas cooling, the sour syngas treatment, and the carbon handling 
system.
    The non-catalytic partial oxidation of hydrocarbons by SGP takes 
place in the gasifier equipped with a specially designed burner. This 
design provides for more efficient gas-liquid mixing and a better flame 
temperature control.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure 1 shows a typical structure of an SGP gasification plant for 
hydrogen production. Presently, 82 SGP reactors are producing about 62 
million Nm3 syngas per day in 26 plants worldwide. This is equivalent 
to 23,000 tons of residue per day or nearly 8 million tons of residue 
per year.

Shell Coal Gasification Process
    For gasification of solid feedstocks, a dedicated development 
program has resulted in the commercially marketed Shell Coal 
Gasification Process (SCGP). The process is characterized by the 
following features:

        <bullet>  Dry feed of pulverized coal,

        <bullet>  Compact gasified and other equipment due to the 
        pressurized, entrained flow, oxygen blown concept,

        <bullet>  Slagging, membrane wall gasifier which allows high 
        temperatures because of insulation and protection of wall by 
        solid inert slag layer,

        <bullet>  Multiple, opposed burners resulting in good mixing of 
        coal and blast, large turndown, and large scale-up potential.

    The typical syngas product consists of 25-30 percent of hydrogen 
and 60-65 percent of carbon monoxide. High-pressure steam is produced 
in the gasification and heat recovery section and can be used, e.g., to 
generate electricity in the IGCC (Integrated Gasification Combined 
Cycle) application, thus increasing the efficiency of the whole 
process. Other by-products are inert slag, elemental sulfur, and 
relatively small amounts of clean water effluent. As an alternative to 
discharging the effluent water, it may be evaporated to give a zero 
water discharge and salts as byproducts. The slag and sulfur can 
readily be marketed.
    The process can handle a wide variety of solid feedstocks, ranging 
from lignite, brown coal, sub-bituminous coal, bituminous coal, 
anthracite, to petroleum coke. Coal types can be switched during 
operation. Over the wide range of coal properties processed, the SCGP 
process has proven to be insensitive to the size, condition, or other 
physical properties of the raw coal.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Shell Global Solution's operational experience with coal 
gasification started with a 6 t/d pilot plant in Amsterdam, followed by 
a 150 t/d unit in Harburg, Germany. A third unit in Houston with a 
capacity of 250-400 t/d fully demonstrated the capability of the 
gasifier to process a wide range of solid fuels from lignite to 
anthracite and to petroleum coke. These experiences have led to the 
successful design, construction and operation of the 2000 t/d coal 
gasification unit of the Demkolec plant in The Netherlands. Various 
SCGP plants are at different stages of implementation.

ASSET

    The ASSET technology was developed internally for Shell projects 
and evolved over a period of about 15 years to facilitate improved 
equipment engineering in the creation of a comprehensive information 
system for alloys that become corroded by contact with complex, high-
temperature gases. ASSET finds wide applications for equipment used in 
thermal stimulation of heavy oil formations, oil refining, 
petrochemical processing, and coal gasification.
    Joint industry programs are being developed and led by Shell Global 
Solutions to further advance the technology with the involvement of 
about 70 other companies, including energy companies, chemicals 
companies, metals producers, engineering companies, research 
establishments, and universities from both U.S. and non-U.S. 
organizations. Financial support and technological co-operation has 
been achieved from these companies and the U.S. Department of Energy--
Office of Industrial Technologies, as summarized in the table here.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Project Objectives

        <bullet>  Provide industry-enhanced use of technology in 
        application of metals and equipment design for high temperature 
        processes.

        <bullet>  Enhance/commercialize an information system which 
        assists in predicting the rates of degradation of commercial 
        alloys in complex, corrosive, high-temperature gases.

        <bullet>  Gather corrosion data with the participating 
        companies and add to ASSET.

        <bullet>  Generate corrosion data and add to ASSET.

        <bullet>  Use new data to expand the envelope of corrosive 
        conditions and alloys to more fully cover the diverse needs of 
        equipment.

        <bullet>  Enhance thermochemical computations.

        <bullet>  Enhance the capability to predict corrosion behavior.

        <bullet>  Reduce energy consumption in various industrial 
        processes.

Commercialization Plan
    The potential users of the product of this project will be chemical 
process industries that operate processes which involve high-
temperature gaseous environments that are capable of causing rapid 
degradation of the process equipment by oxidation, sulfidation, 
sulfidation/oxidation, or carburization attack, or by combinations of 
these modes. Examples can be found in base chemical production, sulfur 
removal process, and hydrogen production. Since the trend to increased 
efficiency typically involves the operation of chemical processes at 
higher temperatures and the creation of increasingly corrosive 
environments, the application of an advanced alloy selection and 
service life prediction system such as ASSET could be very wide.
    The commercialization of the project's results will be a constant 
process over the life of the project. Each company participating in the 
project will have ready access to the most recent version of ASSET and 
will be trained in its use. Membership of MTI in the project allows 
more than 55 companies to access the software as it develops and after 
it is finished. The initial users of the ASSET technology will be the 
current ASSET member companies, as well as any other companies that 
join the project. Additional member companies will be sought throughout 
the life of the project.

Energy Saving Estimates
    The estimated energy savings resulting from the successful 
implementation of the results of the ASSET project are as follows. One 
installed unit or unit production = an equivalent chemical facility 
utilizing in one year, one one-thousandth of the energy used by the 
entire U.S. chemical industry. A two percent improvement is assumed for 
the impact of the new technology.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The technology to be developed may apply in many processes in the 
chemical industry in addition to the examples cited here. In order to 
estimate the impact throughout the chemical industry, an OIT GPRA 
spreadsheet was used. The project can significantly benefit the 
chemical industry, including improved energy efficiency, reduced cost 
and improved productivity, and enhanced environmental benefits in the 
U.S., which will result from the use of the ASSET computational 
software. The development and use of the ASSET information system will 
enable enhanced selection and use of optimal materials for utilization 
as materials of construction in chemical processes.

Chemical Industry Corrosion Management Project

Project Objectives:

        <bullet>  Improved accuracy in equipment lifetime predictions

        <bullet>  Energy savings of 18.5 trillion Btu by 2020

        <bullet>  Improved process safety and operations

        <bullet>  Reduced maintenance costs and expenses

        <bullet>  Reduced emissions of CO2 and other pollutants

Applications
    Data for corrosion by Cl<INF>2</INF> and HCl gases and corrosion 
prediction methods will benefit the forest products and chemicals 
industry, with applications in chemical processes, incinerators, 
burning chlorinated materials, and bleaching operations in paper 
manufacturing. Cyclic oxidation data will be applicable to the 
chemicals, steel, heat treating, and petroleum industries. Metal 
dusting data will be applicable to the steel, chemicals and petroleum 
industries.

Improved Corrosion Management Could Provide Significant Cost and Energy 
        Savings for the Chemical Industry
    In the chemical industry, corrosion is often responsible for 
significant shutdown and maintenance costs. Shutdowns are costly in 
terms of productivity losses, restart energy, and material costs. These 
shortcomings could be reduced by improving the capability of engineers 
to better predict corrosion of alloys under different conditions.
    We have a significant opportunity to increase the accuracy used in 
predicting equipment lifetimes when this equipment is subject to 
corrosion in high-temperature gases. Researchers are developing 
corrosion data for commercial alloys, thermochemical models, and 
increased understanding, which will be delivered to plant designers and 
operators via an information system to allow industry to 
comprehensively and reliably predict corrosion. This includes an 
extensive list of commercial alloys exposed to complex and corrosive 
gases at temperatures ranging from 200<SUP>+</SUP>C to 
1,200<SUP>+</SUP>C.
    Anticipated benefits from improving corrosion management are 
extensive in the chemical industry, many other industries, and for the 
U.S. economy. Examples are improvements in process safety, reduction in 
maintenance costs of process operation, more cost-effective use of 
expensive alloys in equipment designs, reductions in energy use, 
moderation in the release of CO<INF>2</INF> and other pollutants to the 
atmosphere, and more confident use of alloys in progressively more 
extreme operating conditions. With improvements in corrosion 
management, equipment maintenance will be better scheduled, and 
unplanned outages due to unexpected corrosion will be reduced. The 
estimated annual energy savings by 2020 are 18.5 trillion Btu of 
CH<INF>4</INF>.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Corrosion Project Description
    The goal is to develop corrosion technology and to deliver it via 
an information system that will allow industries to better manage 
corrosion of metals and alloys used in high-temperature process 
equipment through improved prediction of corrosion-limited lifetimes 
and corrosion mechanisms. The project effort in corrosion technology 
combines comprehensive corrosion databases and thermochemical models 
and calculation programs to predict the dominant corrosion process. 
Metal losses by corrosion can then be calculated for commercial alloys 
over wide ranges of corrosive environments. The corrosion modes to be 
studied include corrosion by Cl<INF>2</INF>/HCl gases, cyclic 
oxidation, and metal dusting.
    The effort will generate several different types of corrosion data. 
Data for corrosion by Cl<INF>2</INF>/HCl gases will be measured under 
conditions relevant for this mechanism, including temperature, time, 
gas composition, alloy composition, and mass transport characteristics 
as influenced by gas flow over metal surfaces. Thermal cycling 
generally influences oxidation behavior, but it can also promote 
additional forms of degradation, such as thermal fatigue. Generation of 
meaningful cyclic oxidation data poses a difficult challenge, due to 
the diversity of the many potential thermal challenges.
    Researchers also intend to create a capability to compile all 
available data to help in assessments of the tendencies for alloys and 
metals towards metal dusting in commercial conditions. The aim is to 
predict metal dusting-limited lifetimes, as defined either by 
incubation times before onset of metal dusting or by metal loss rates 
once metal dusting begins.

Milestones
    The four main tasks are as follows:

        <bullet>  Software development

        <bullet>  Thermochemical modeling

        <bullet>  Corrosion testing/corrosion technology development

        <bullet>  Commercialization

Commercialization
    Developed technology will be transferred to industry through the 
project's member companies. The effort will be assisted with semi-
annual meetings, electronic communication, software updates and 
presentations to industry conferences. The Materials Technology 
Institute (MTI) will distribute the technology to more than 50 chemical 
companies and their suppliers.

Pulsed Eddy Current Technology

    Shell Global Solutions originally developed the Pulsed Eddy Current 
(PEC) technology as an assist for detecting corrosion under insulation 
(CUI) through insulation material and metal insulation covers. A number 
of `spin-off' PEC applications were also identified over the past few 
years during this research effort.
    The basic principle of operation of PEC is the induction of eddy 
currents in steel by a magnetic field in the sensor. The PEC probe acts 
both as magnetizer and detector of the induced eddy currents. A PEC 
probe is placed above a coated steel object. An electrical current is 
then introduced in the transmitter coil, which magnetizes the steel 
surface beneath the probe. Subsequently, the current is switched-off, 
causing the steel to de-magnetize. The sudden change in magnetic field 
strength generates eddy currents in the steel, which diffuse inwards 
from the steel, decaying in strength as they propagate. The induced 
magnetic field of these decaying eddy currents is detected by a set of 
receiver coils in the PEC probe, and the signal detected relates to the 
wall thickness.
    PEC wall thickness is an average over the area of the probe's 
footprint, i.e., a roughly circular area where eddy currents flow. In 
practice, this means that PEC is well suited for measuring general wall 
loss. PEC is less suited to detect localized damage such as isolated 
pitting.

When is PEC suited for an inspection problem?
    PEC is particularly suitable for the following situations:

    No direct access to the metal surface, due to a layer of 
insulation, thick coatings, fireproofing, road surface or marine growth 
that is expensive or impossible to remove and for which removing would 
serve no other purpose.
    Surface preparation: PEC does not require surface preparation, 
which is a crucial advantage in splash zone and underwater 
applications.
    Access: Conventional methods are often not applicable if access is 
difficult or restricted. PEC is more suited than alternative techniques 
for deployment by remote access via jigs, suspension on cables, 
abseilers, ROVs and `key hole probes.' This relates to the tolerance 
against misalignment of the PEC probes with respect to the steel 
surface.
    Monitoring, especially at high temperature: PEC is uniquely suited 
for in-service monitoring of steel.
    The technical feasibility of PEC relates to:

        <bullet>  Nature of the degradation PEC can detect and size 
        general corrosion, but often fails to detect more localized 
        corrosion.

        <bullet>  Complexity of the geometry: PEC is best suited for 
        `simple' geometries, i.e., straight sections of pipes without 
        any nozzles and supports. It is possible, but more difficult, 
        to apply PEC around more complex geometries.

        <bullet>  Thickness of the insulation: the thicker the 
        insulation, fireproofing, etc., the more difficult it is to 
        apply PEC.

    Based on the utility and technical feasibility, the PEC 
applications can be categorized as follows:
Regular Applications

         Corrosion monitoring

         Splash zone inspection of coated risers and caissons

         Under water inspections of caissons by remote operated vehicle 
        (ROV)

         Measurements through coatings and fireproofing

         Well tubular inspections (offshore)

         Key-hole inspections (e.g., annular rings storage tanks)

         Measuring remaining wall thickness through corrosion products

         Corrosion under insulation

         High temperature inspections of a vessel (not corrosion 
        monitoring)

Niche Applications

         Delamination (few applications only)

         Detection of cracks in welds (e.g., for inspection of 
        orthotropic steel bridges)

         Detection of geometrical anomalies (e.g., frame detection of 
        sunken ships)

Technical Progress Over the Last Three Years
    The Research and Development of the PEC team of Shell Global 
Solutions has led to a number of improvements to the PEC technology. 
This program also led to seven patent applications.
    The main technical improvements are:

    Patents have been filed for the focused probe design. This design 
reduces the footprint by about a factor of five with respect to other 
probe designs.

    PEC profiling is being developed. PEC profiling further enhances 
the defect sensitivity for external corrosion.

    Keyhole probes have been developed. These probes allow inspection 
in locations with restricted access.

    A method has been developed to make PEC highly reproducible. A 
patent application has been filed on PEC corrosion monitoring.

    Directional Pulsed Eddy Current is being developed for crack 
detection applications.
Portability
    A unique feature of PEC is its portability. With PEC, a single 
sensor can be used to monitor many different locations. Positioning 
frames and center pop marks are used to ensure that the PEC probe is 
accurately located in the same monitor position each measurement.
    The portability of PEC has important advantages over alternatives:

        <bullet>  Robustness. No fixed parts.

        <bullet>  Economical. Costs are saved by using just one set of 
        equipment for many different locations.

        <bullet>  No problems with high temperature (tested up to 
        420<SUP>+</SUP>C).

        <bullet>  Installation: can be done while the equipment is 
        running; no need for welding.

    PEC probes are also available to monitor wall thickness at fixed 
positions. These are used to determine corrosion rates in areas where 
it is difficult to use the mobile PEC probe (e.g., in areas where 
scaffolding is required). The method is illustrated with Figures 3 and 
4.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In the photo (Figure 3), data collection is shown in progress on an 
insulated pipe operated at 320<SUP>+</SUP>C. The operator places the 
PEC probe on a measurement position that is defined by a positioning 
frame or by center pop points on the pipe surface. The result of six 
such measurements recorded over a time span of 200 days is displayed in 
the accompanying graph (Figure 4). Note the expanded wall thickness 
scale.
    PEC corrosion monitoring probes can also be fixed to pipes. For hot 
insulated pipes, the probes are strapped to the insulation; otherwise, 
probes are simply and directly strapped to the pipe.

Environment Remediation and Sustainability

    Shell Global Solutions has active applied research underway in the 
Houston area for environmental remediation and sustainability. At the 
Shell Westhollow Technology Center, we continue to create more 
efficient and cost-effective site remediation methods for petroleum in 
the environment, including low-intensity biological remediation 
processes.
    To promote sustainability concepts, Shell established Rice 
University's new Shell Center for Sustainability last fall through a 
$3.5 million endowment from the Shell Oil Company Foundation. Building 
on the Environmental and Energy Systems Institute's interdisciplinary 
program of education, research and outreach, the Shell Center focuses 
on the role of the private sector in implementing a sustainable future.
    Royal Dutch/Shell Chairman Sir Philip Watts spearheaded the 
development of the center and also addressed the first conference held 
in March of this year. One of the primary goals of the new research 
center is to develop established methods or practices that industry can 
follow in order to foster sustainability.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for Robert Hennekes

    Bob Hennekes is currently Vice President, Technology Marketing, for 
Shell Global Solutions (U.S.) Inc. Bob manages a group of sales 
professionals to gain technology business for Shell. Bob has a BS 
degree in Chemical Engineering from the University of California at 
Davis. Bob has a 22-plus year history in downstream (refining) for 
Shell and currently works with companies that need technology solutions 
in the midstream (Gas), namely LNG, Gasification, and Gas to Liquids.
    Bob's prior work has been in technology, operations, project 
management, sales and marketing. Bob has worked in Gas, Refining, 
Pipeline and Distribution and Lubricants.
    Bob is married to Kelley Hennekes for 18 years and has three 
adopted children: Bud, born in California, A.J., born in New Orleans, 
and Sammie Jo, born in Katmandu, Nepal.

    Chairwoman Biggert. Thank you.
    Last but not least, Dr. Chang-Diaz.

   STATEMENT OF DR. FRANKLIN CHANG-DIAZ, NASA ASTRONAUT AND 
 DIRECTOR OF THE ADVANCED SPACE PROPULSION LABORATORY, JOHNSON 
                          SPACE CENTER

    Dr. Chang-Diaz. Thank you very much.
    Thank you for the opportunity to come and present this, and 
I'll go fast because I want to stay within your time.
    As a way of introduction, I'd like to include some personal 
experiences that over many years have shaped my perspective on 
the subject of energy and space; my two most favorite subjects. 
I was fascinated by the topic of nuclear energy as a young boy. 
Since early childhood I remember an important event In Costa 
Rica as a boy in the late 1950's.
    A traveling scientific exhibition was sponsored by the 
United States and was set up in a very large inflatable dome at 
the airport in San Jose. It was entitled ``Atoms for Peace`` 
and it was sent throughout the whole Latin America region to 
educate the public about atomic energy.
    The exhibition spent several days in the country and, while 
it was there, every day after school I delighted myself in 
examining the new universe of atomic particles, their magical 
and amazing power for converting their mass into energy, 
according to Einstein's famous formula. The exhibitors talked 
about our growing energy needs and of the great future 
potential of this new power source. So it appeared halfway 
through the 20th century.
    Like many children of my day, I was captivated by space and 
the flight of Sputnik; but, as a young child, nurturing dreams 
of space exploration, the relationship between space and atomic 
energy was the central notion that guided my chosen career. In 
my mind, the ships that would carry humans to the stars would 
be nuclear powered. The later news of the USS Nautilus opening 
a new sea route under the north polar cap was only a natural 
first early step.
    This progression would eventually lead to similar ships 
traveling far and fast, not just through the ocean depths, but 
through the depths of space.
    As a young high school student in Costa Rica I came across 
a NASA brochure written by Dr. Van Brown which was entitled 
Should You Be A Rocket Scientist. Immediately I sent in my 
response with a resounding yes. This NASA response that I got 
was a form letter, which you have in the testimony here. I have 
kept it over all these years, 36 years. In fact I have the 
whole envelope right here which has been with me since I came 
to this country.
    [The letter referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The message was very simple. To pursue a career in space I 
would have to come to the United States, and so I did. I had 
arrived in the United States in the fall of 1968 dreaming of 
NASA, space exploration and of working on the rockets that 
would carry us to the planets. Yet, while I watched landing on 
the moon as a college freshman, it was the energy crises of the 
1970's that really provided the immediate imputes for my 
pursuit of a career in nuclear power, and ultimately the power 
of controlled fusion, the power of the stars.
    It has been my belief since then that space exploration and 
fusion energy research are closely linked together and have a 
strong synergistic relationship which is embodied in the field 
of space propulsion. Controlled fusion power has been very 
elusive, but the pace of world research in this field has been 
steady, has been relentless.
    It was during my graduate studies in plasma physics and 
nuclear power at MIT that I came to fully comprehend the 
awesome magnitude of the technical challenge. To heart a gas to 
temperatures of millions of degrees, greater than the interior 
of the sun and maintain this plasma in that container that 
wouldn't melt and the bear nuclei of the plasma would smash 
into each other fusing into heavier elements and releasing 
large quantities of energy. The energy would be captured, 
converted into electricity to power the engines of our 
civilization. The fuel would be hydrogen, the most abundant 
element in the university, and plentiful in our oceans.
    The physics and engineering challenges to bring about 
controlled fusion conditions are daunting, yet such conditions 
are gradually be reached in multiple fusion experiments 
throughout the world today. The use of electromagnetic waves 
similar to those that we use everyday to heat our lunch as a 
quick meal are used to heat plasma to thermal nuclear 
conditions. Million degree plasma is suspended in strong force 
fields away from any physical structure so nothing can melt. 
Some of these magnetic bottles are just like gigantic donuts 
that have no holes and nothing can escape.
    In this decade several major experiments in Europe, Asia 
and the Americans will be posed to demonstrate the conditions 
needed for a power producing reactor. The large world 
investment, investment in fusion research has spawned a host of 
new technology which can have immediate pay off. It is here 
that NASA through the development of plasma rock, it has come 
into the picture.
    Through our research in plasma and controlled fusion, we 
can now consider rockets with exhaust temperatures in the 
millions of degrees, with a carefully shaped magnetic nozzles, 
the plasma accelerates, without melting anything, to velocities 
which are unthinkable with our present chemical rockets. The 
use of these plasmas for rocket propulsion has opened a new 
realm of technology within the existing field of electric 
propulsion.
    We utilize the same plasma heating techniques and employ 
the same diagnostic sensors, which have been developed through 
years of difficult and expensive research in fusion. So, even 
before fusion becomes a reality, we can now reap a handsome 
benefit from the high investment.
    Plasmas are the key to our future space transportation 
needs, but, as the name implies, electric propulsion depends on 
the availability of large amounts of electrical power in space. 
The synergism between power generation and space propulsion is 
again highlighted.
    I often say that in space, power is life. As we reach the 
orbit of Mars and beyond, the rays of our Sun become too feeble 
to power human expeditions. At these distances, even our 
miniature robots rely on nuclear electric generators and 
heaters to stay alive. Future human expeditions will do so as 
well.
    Recognizing this important technical requirement, NASA has 
embarked on the development of advanced nuclear power systems 
for these deep space exploration. These are extremely important 
for the development of a robust human and robotic exploration 
program. The cornerstone of this initiative is Project 
Prometheus, which is presently focusing on the definition of a 
very exciting mission: the radar exploration of three of the 
moons of Jupiter.
    Propelled by nuclear electric rockets and equipped with 
much higher power instruments than the earlier Galileo probe, 
the robot will search for hidden oceans, and perhaps life, 
beneath the icy crusts of Jupiter's moons.
    Our research group at the Johnson Space Center has been 
engaged in the development of the VASIMR engine, a new concept 
in high-power plasma propulsion, which embodies many of the 
concepts and techniques I have described. Our rapid progress 
has benefited greatly from a strong government inter-agency 
collaboration, involving the Oak Ridge and Los Alamos National 
Laboratories and three NASA centers. Several universities are 
also involved as well.
    We are also stimulating the private sector, through small 
innovative research opportunities in superconductivity, 
advanced materials and other areas.
    The synergistic relationship I describe between energy 
research and space propulsion plays in both directions. For 
example, a key component of the VASIMR rocket is a high-power 
plasma source known as a ``helicon,'' which produces efficient 
high-density plasma. This plasma we then boost in energy to 
produce the propulsion that we need. This was invented by 
Australian physicist Dr. Roderick Boswell, and it was not 
addressed in a very large way in the early '60's, but it has 
now taken a much stronger effort.
    Recent experiments have opened new applications of these 
devices for terrestrial use in plasma processing of advanced 
semiconductors and in the elimination of highly toxic waste. We 
are driving helicon discharges to ever higher plasma densities 
and power levels, consequently, knowledge of the physics of 
helicons continues to improve.
    Let me just advance toward the end, because I wanted to 
point out to you that we believe we are also leaving a strong 
imprint in the development of fundamental plasma science at 
both the experimental and theoretical level. I know you are 
very interested in education, so doing so we are nurturing the 
education of our young and the training our future scientists. 
Since we began research operations at the Johnson Space Center 
in 1995, we have trained a total of 56 graduate and 
undergraduate students.
    In strengthening our educational mission and in a matter 
reminiscent of that traveling science demonstration ``Atoms for 
Peace`` I mentioned earlier, our team initiated an educational 
experiment with the Odyssey Academy, a predominately Hispanic 
middle school in Galveston, Texas. The project involves the 
teaching of an 11-week curriculum in plasma rockets to a class 
of 20 selected students from 6th to 8th grades. It has been a 
great success.
    To end, I just want to say that humans began exploring 
space the day they chose to walk out of their caves in search 
for food. Space exploration is nothing less than human 
survival. You probably have heard us say that the first human 
being to set foot on Mars is alive today and living now 
somewhere on planet Earth, a young girl or boy sitting in one 
of our classrooms at this very moment. Will they be discouraged 
or encouraged by their elders?
    I was blessed with the best parents anyone could ever have 
and perhaps fortunate to find a display on atomic power and a 
NASA brochure on rocket science to keep me going.
    The opportunities we offer our young in these exciting 
fields of energy research and space exploration are key to our 
technological growth and the preservation of our way of life. I 
am indebted to this great nation for it has allowed me to 
partake in the greatest of human adventures. I hope we can 
continue to inspire our future generations to carry out our 
human legacy into the vastness of space.
    I sincerely appreciate the opportunity to appear before the 
Subcommittee today, and I look forward to answering your 
questions. Thanks.
    [The prepared statement of Dr. Chang-Diaz follows:]

               Prepared Statement of Franklin Chang-Diaz

    Madam Chair and Members of the Subcommittee, thank you for the 
opportunity to testify before you today regarding energy research and 
its relationship to our current activities in advanced propulsion at 
NASA's Johnson Space Center (JSC).
    As a way of introduction, I would like to include some personal 
experiences that over many years have shaped my perspective on these 
subjects. I was fascinated by the topic of nuclear energy since early 
childhood. I remember an important event as a young Costa Rican boy in 
the late 1950s. A traveling scientific exhibition, sponsored by the 
United States, was set up in a large inflatable dome at the national 
airport in San Jose. It was entitled ``Atoms for Peace'' and was sent 
throughout Latin America to inform and educate the public about atomic 
energy. The exhibition spent several days in the country and, while it 
was there, every day after school I delighted myself in examining the 
new universe of atomic particles, their magical and amazing power for 
converting their mass into energy, as predicted by Einstein's famous 
formula. The exhibitors talked about our growing energy needs and of 
the great future potential of this new power source. So it appeared 
half way through the 20th century.
    Like many children of my day, I was captivated by space and the 
flight of Sputnik; but, as a young child, nurturing dreams of space 
exploration, the relationship between space and atomic energy was the 
central notion that guided my chosen career. In my mind, the ships that 
would carry humans to the stars would be nuclear powered. The later 
news of the USS Nautilus opening a new sea route under the north polar 
cap was only a natural early step. This progression would eventually 
lead to similar interplanetary ships traveling far and fast, not only 
through the ocean depths, but also through the depths of space.
    As a young high school student in Costa Rica, I came across a NASA 
brochure, written by Dr. Werner Von Braun and entitled ``Should You Be 
a Rocket Scientist?'' I immediately sent him a letter with a resounding 
``yes.'' The NASA form letter response, which I have kept and enclose 
with this testimony, came months later and had a simple message: to 
pursue such a career I would have to come to the United States. So I 
did.
    I had arrived in the United States in the fall of 1968, dreaming of 
NASA, space exploration and of working on the rockets that would carry 
us to other planets. Yet, while I watched the landing on the Moon as a 
college freshman it was the energy crisis of the 1970s that provided 
immediate impetus for my pursuit of a career in nuclear power and 
ultimately the promise of controlled fusion, the power of the stars.
    It has been my belief since, that space exploration and fusion 
energy research are closely linked, and have a strong synergistic 
relationship, which is embodied in the field of space propulsion.
    Controlled fusion power has been elusive, but the pace of world 
research in this field has been steady and relentless. It was during my 
graduate studies in plasma physics and nuclear power at MIT that I came 
to fully comprehend the awesome magnitude of the technical challenge:

         To heat a gas to temperatures of millions of degrees, greater 
        than the interior of the Sun, and maintain this so-called 
        ``plasma'' in a container that would not melt. In doing so, the 
        bare nuclei of the plasma smash into each other, fusing into 
        heavier elements and releasing large amounts of energy. The 
        energy is captured and converted into the electricity that 
        powers the engines of our civilization. The fuel is hydrogen, 
        the most abundant element in the universe and plentiful in our 
        oceans.

    The physics and engineering challenges to bring about controlled 
fusion conditions are daunting, yet such conditions are gradually being 
reached in multiple fusion experiments throughout the world today. The 
use of electromagnetic waves, similar to those we now use to heat a 
quick meal, are used to heat plasmas to thermonuclear conditions. The 
million-degree plasma is suspended in strong force fields, away from 
any physical structure, so nothing can melt. Some of these magnetic 
``bottles'' resemble gigantic doughnuts, with no openings for the 
plasma to escape. In this decade, several major experiments in Europe, 
Asia and the Americas will be poised to demonstrate the conditions 
needed for a power-producing reactor.
    The large world investment in fusion research has spawned a host of 
new technologies, which can now have immediate payoff. It is here that 
NASA, through the development of plasma rockets, has come into the 
picture.
    Rockets work by the ejection of high speed gases through a nozzle. 
The faster the exhaust, the better the rocket. To make the exhaust 
fast, we generally make it very hot. Our best chemical rockets of today 
produce exhaust temperatures of thousands of degrees, right at the 
limit of the melting point of the materials, which hold the rocket 
together.
    Through our research in plasmas and controlled fusion, we can now 
consider rockets with exhaust temperatures in the millions of degrees, 
with a carefully shaped magnetic nozzle, the plasma accelerates, 
without melting anything, to velocities unthinkable with our present 
chemical rockets. The use of these plasmas for rocket propulsion has 
opened a new realm of technology within the existing field of electric 
propulsion. We utilize the same plasma heating techniques and employ 
the same diagnostic sensors, which have been developed through years of 
difficult and expensive research in fusion. So, even before fusion 
becomes a reality, we can now reap a handsome benefit from the high 
investment.
    Plasmas are the key to our future space transportation needs, but, 
as the name implies, electric propulsion depends on the availability of 
large amounts of electrical power in space. The synergism between power 
generation and space propulsion is again highlighted.
    I often say that in space, power is life. As we reach the orbit of 
Mars and beyond, the rays of our Sun become too feeble to power human 
expeditions. At these distances, even our miniature robots rely on 
nuclear electric generators and heaters to stay alive. Future human 
expeditions will do so as well.
    Recognizing this important technical requirement, NASA has embarked 
on the development of advanced nuclear power systems for deep space 
exploration. These are extremely important for the development of a 
robust human and robotic exploration program. The cornerstone of this 
initiative is Project Prometheus, which is presently focusing on the 
definition of a very exciting mission: the radar exploration of three 
of the moons of Jupiter. Propelled by nuclear electric rockets and 
equipped with much higher power instruments than the earlier Galileo 
probe, the robot will search for hidden oceans, and perhaps life, 
beneath the icy crusts of Jupiter's moons.
    Our research group at the Johnson Space Center has been engaged in 
the development of the VASIMR engine, a new concept in high-power 
plasma propulsion, which embodies many of the concepts and techniques I 
have described. Our rapid progress has benefited greatly from a strong 
government interagency collaboration, involving the Oak Ridge and Los 
Alamos National Laboratories and three NASA centers (Johnson, Marshall 
and Goddard). Our team includes scientists and engineers from MIT, 
University of Michigan, University of Alabama at Huntsville, University 
of Texas at Austin, Rice University and University of Houston. We are 
also stimulating the private sector, through small innovative research 
opportunities in superconductivity, advanced materials and innovative 
thermal management systems.
    The synergistic relationship I describe between energy research and 
space propulsion plays in both directions. For example, a key component 
of the VASIMR rocket is a high-power plasma source known as a 
``helicon.'' It efficiently produces high-density plasma, which we 
subsequently boost in the VASIMR to a much higher energy state suitable 
for propulsion. Australian physicist Dr. Roderick Boswell, and his team 
at the Australian National University, invented the helicon in the late 
1960s. However, the technology of these devices did not develop beyond 
discrete low-power uses in the field of plasma processing of 
semiconductor chips.
    Recent experiments have opened new application of these devices for 
terrestrial use in plasma processing of advanced semiconductors and in 
the elimination of highly toxic waste. We are driving helicon 
discharges to ever higher plasma densities and power levels, 
consequently, knowledge of the physics of helicons continues to improve 
today, driven partially by the renewed interest in plasma propulsion. A 
strong collaboration with Dr. Boswell's group in Australia is also 
developing and NASA is drafting a collaborative Space Act Agreement 
with the Australian team, to jointly continue the development of 
helicon physics. More recently, also in the experimental arena, our 
collaborators at the Oak Ridge National Laboratory, working under U.S. 
Department of Energy sponsorship, discovered an intriguing high-density 
helicon mode of operation, which would greatly enhance VASIMR 
performance. We are planning to utilize these advances in our high-
power experiments next year.
    Another important area where the NASA research component enhances 
the originally borrowed technology is in the field of 
superconductivity. Powerful superconducting magnets are used in fusion 
research to generate the strong fields required to contain the hot 
plasma. However, in their familiar fusion application, these magnets 
are generally heavy and bulky and not suitable for space flight. We are 
extending the technology to the new lightweight superconducting 
materials, which are now coming of age and incorporating cryocooler 
technologies developed for the Hubble Space Telescope. The end result 
is lightweight and compact superconducting magnets, which operate at 
higher temperatures. In this form, they become attractive for other 
terrestrial applications, such as transportation, medicine and energy 
storage and distribution.
    We believe we are also leaving a strong imprint in the development 
of fundamental plasma science at both the experimental and theoretical 
levels. In doing so, we are nurturing the education of our young and 
the training our future scientists. Since we began research operations 
at the Johnson Space Center in 1995, we have trained a total of 56 
graduate and undergraduate students.
    One of our most recent Ph.D. graduates, Dr. Alexei Arefiev of the 
University of Texas at Austin, was awarded the prestigious Marshall 
Rosenbluth Outstanding Thesis award for 2003 by the American Physical 
Society. This is the first time this National award was given to a NASA 
project and the first time it was given in the field of propulsion 
research. Alexei's thesis described the fundamental physics responsible 
for the energy boost imparted to the plasma in the VASIMR engine. Our 
team at JSC has recently verified experimentally these theoretical 
predictions.
    In strengthening our educational mission, and in a manner 
reminiscent of that traveling science demonstration ``Atoms for Peace'' 
I mentioned earlier, our team initiated an educational experiment with 
the Odyssey Academy, a strongly Hispanic middle school in Galveston, 
TX. The project involves the teaching of an 11-week curriculum in 
plasma rockets to a class of about 20 selected students from 6th to 8th 
grades. The pilot course involved our entire research group, in teams 
of two for each of the 11 classes. The investigators conducted lectures 
and experimental demonstrations at the school on the basic physics of 
energy production and plasma rockets. The pilot course was highly 
successful and we are now endeavoring to apply it to other schools in 
the local area.
    Humans began exploring space the day they chose to walk out of 
their caves in search of food. Space exploration is nothing less than 
human survival. You probably have heard us say that the first human 
being to set foot on Mars is alive now somewhere on planet Earth, a 
young girl or boy sitting in one of our classrooms at this very moment. 
Will they be discouraged or encouraged by their elders? I was blessed 
with the best parents anyone could ever have and perhaps fortunate to 
find a traveling display on atomic power and a NASA brochure on rocket 
science to keep nudging me on.
    The opportunities we offer our young in these exciting fields of 
energy research and space exploration are key to our technological 
growth and the preservation of our way of life. I am indebted to this 
great nation for it has allowed me to partake in the greatest of human 
adventures. I hope we can continue to inspire our future generations to 
carry our human legacy into the vastness of space.
    I sincerely appreciate the opportunity to appear before the 
Subcommittee today, and I look forward to responding to any questions 
you may have.

                  Biography for Franklin R. Chang-Diaz

PERSONAL DATA:

    Born April 5, 1950, in San Jose, Costa Rica, to the late Mr. Ramon 
A. Chang-Morales and Mrs. Maria Eugenia Diaz De Chang. Married to the 
former Peggy Marguerite Doncaster of Alexandria, Louisiana. Four 
children. He enjoys music, glider planes, soccer, scuba diving, and 
hiking. His mother, brothers, and sisters still reside in Costa Rica.

EDUCATION:

    Graduated from Colegio De La Salle in San Jose, Costa Rica, in 
November 1967, and from Hartford High School in Hartford, Connecticut, 
in 1969; received a Bachelor of Science degree in mechanical 
engineering from the University of Connecticut in 1973 and a doctorate 
in applied plasma physics from the Massachusetts Institute of 
Technology (MIT) in 1977.

SPECIAL HONORS:

    Recipient of the University of Connecticut's Outstanding Alumni 
Award (1980); 7 NASA Space Flight Medals (1986, 1989, 1992, 1994, 1996, 
1998); 2 NASA Distinguished Service Medals (1995, 1997), and 3 NASA 
Exceptional Service Medals (1988, 1990, 1993). In 1986, he received the 
Liberty Medal from President Ronald Reagan at the Statue of Liberty 
Centennial Celebration in New York City, and in 1987 the Medal of 
Excellence from the Congressional Hispanic Caucus. He received the 
Cross of the Venezuelan Air Force from President Jaime Lusinchi during 
the 68th Anniversary of the Venezuelan Air Force in Caracas, Venezuela 
(1988), and the Flight Achievement Award from the American 
Astronautical Society (1989). Recipient of four Doctorates ``Honoris 
Causa'' (Doctor of Science from the Universidad Nacional de Costa Rica; 
Doctor of Science from the University of Connecticut, Doctor of Law 
from Babson College, and Doctor of Science from the Universidade de 
Santiago de Chile. He is Honorary faculty at the College of 
Engineering, University of Costa Rica. In April 1995, the government of 
Costa Rica conferred on him the title of ``Honorary Citizen.'' This is 
the highest honor Costa Rica confers to a foreign citizen, making him 
the first such honoree who was actually born there. Recipient of the 
American Institute of Aeronautics and Astronautics 2001 Wyld Propulsion 
Award for his 21 years of research on the VASIMR engine.

EXPERIENCE:

    While attending the University of Connecticut, he also worked as 
research assistant in the Physics Department and participated in the 
design and construction of high energy atomic collision experiments. 
Following graduation in 1973, he entered graduate school at MIT, 
becoming heavily involved in the United States' controlled fusion 
program and doing intensive research in the design and operation of 
fusion reactors. He obtained his doctorate in the field of applied 
plasma physics and fusion technology and, in that same year, joined the 
technical staff of the Charles Stark Draper Laboratory. His work at 
Draper was geared strongly toward the design and integration of control 
systems for fusion reactor concepts and experimental devices, in both 
inertial and magnetic confinement fusion. In 1979, he developed a novel 
concept to guide and target fuel pellets in an inertial fusion reactor 
chamber. More recently he has been engaged in the design of a new 
concept in rocket propulsion based on magnetically confined high 
temperature plasmas. As a visiting scientist with the M.I.T. Plasma 
Fusion Center from October 1983 to December 1993, he led the plasma 
propulsion program there to develop this technology for future human 
missions to Mars. In December 1993, Dr. Chang-Diaz was appointed 
Director of the Advanced Space Propulsion Laboratory at the Johnson 
Space Center where he continues his research on plasma rockets. He is 
an Adjunct Professor of Physics at Rice University and the University 
of Houston and has presented numerous papers at technical conferences 
and in scientific journals.
    In addition to his main fields of science and engineering, he 
worked for 21/2 years as a house manager in an experimental community 
residence for de-institutionalizing chronic mental patients, and was 
heavily involved as an instructor/advisor with a rehabilitation program 
for hispanic drug abusers in Massachusetts.

NASA EXPERIENCE:

    Selected by NASA in May 1980, Dr. Chang-Diaz became an astronaut in 
August 1981. While undergoing astronaut training he was also involved 
in flight software checkout at the Shuttle Avionics Integration 
Laboratory (SAIL), and participated in the early Space Station design 
studies. In late 1982 he was designated as support crew for the first 
Spacelab mission and, in November 1983, served as on-orbit capsule 
communicator (CAPCOM) during that flight.
    From October 1984 to August 1985 he was leader of the astronaut 
support team at the Kennedy Space Center. His duties included astronaut 
support during the processing of the various vehicles and payloads, as 
well as flight crew support during the final phases of the launch 
countdown. He has logged over 1,800 hours of flight time, including 
1,500 hours in jet aircraft.
    Dr. Chang-Diaz was instrumental in implementing closer ties between 
the astronaut corps and the scientific community. In January 1987, he 
started the Astronaut Science Colloquium Program and later helped form 
the Astronaut Science Support Group, which he directed until January 
1989.
    A veteran of seven space flights, STS 61-C (1986), STS-34 (1989), 
STS-46 (1992), STS-60 (1994), STS-75 (1996), STS-91 (1998) and STS-111 
(2002), he has logged over 1,601 hours in space, including 19 hours and 
31 minutes in three space walks.

SPACE FLIGHT EXPERIENCE:

    STS 61-C (January 12-18, 1986), was launched from the Kennedy Space 
Center, Florida, on the Space Shuttle Columbia. STS 61-C was a six-day 
flight during which Dr. Chang-Diaz participated in the deployment of 
the SATCOM KU satellite, conducted experiments in astrophysics, and 
operated the materials processing laboratory MSL-2. Following 96 orbits 
of the Earth, Columbia and her crew made a successful night landing at 
Edwards Air Force Base, California. Mission duration was 146 hours, 3 
minutes, 51 seconds.
    On STS-34 (October 18-23, 1989), the crew aboard Space Shuttle 
Atlantis successfully deployed the Galileo spacecraft on its journey to 
explore Jupiter, operated the Shuttle Solar Backscatter Ultraviolet 
Instrument (SSBUV) to map atmospheric ozone, and performed numerous 
secondary experiments involving radiation measurements, polymer 
morphology, lightning research, microgravity effects on plants, and a 
student experiment on ice crystal growth in space. STS-34 launched from 
Kennedy Space Center, Florida, and landed at Edwards Air Force Base, 
California. Mission duration was 119 hours and 41 minutes and was 
accomplished in 79 orbits of the Earth.
    STS-46 (July 31-August 8, 1992) was an 8-day mission during which 
crew member deployed the European Retrievable Carrier (EURECA) 
satellite, and conducted the first Tethered Satellite System (TSS) test 
flight. Mission duration was 191 hours, 16 minutes, 7 seconds. Space 
Shuttle Atlantis and her crew launched and landed at the Kennedy Space 
Center, Florida, after completing 126 orbits of the Earth in 3.35 
million miles.
    STS-60 (February 3-11, 1994) was the first flight of the Wake 
Shield Facility (WSF-1), the second flight of the Space Habitation 
Module-2 (Spacehab-2), and the first joint U.S./Russian Space Shuttle 
mission on which a Russian Cosmonaut was a crew member. During the 8-
day flight, the crew aboard Space Shuttle Discovery conducted a wide 
variety of biological materials science, Earth observation, and life 
science experiments. STS-60 launched and landed at Kennedy Space 
Center, Florida. The mission achieved 130 orbits of Earth in 3,439,705 
miles.
    STS-75 (February 22 to March 9, 1996) was a 15-day mission with 
principal payloads being the reflight of the Tethered Satellite System 
(TSS) and the third flight of the United States Microgravity Payload 
(USMP-3). The TSS successfully demonstrated the ability of tethers to 
produce electricity. The TSS experiment produced a wealth of new 
information on the electrodynamics of tethers and plasma physics before 
the tether broke at 19.7 km, just shy of the 20.7 km goal. The crew 
also worked around the clock performing combustion experiments and 
research related to USMP-3 microgravity investigations used to improve 
production of medicines, metal alloys, and semiconductors. The mission 
was completed in 252 orbits covering 6.5 million miles in 377 hours and 
40 minutes.
    STS-91 Discovery (June 2-12, 1998) was the 9th and final Shuttle-
Mir docking mission and marked the conclusion of the highly successful 
joint U.S./Russian Phase I Program. The crew, including a Russian 
cosmonaut, performed logistics and hardware resupply of the Mir during 
four docked days. They also conducted the Alpha Magnetic Spectrometer 
experiment, which involved the first of its kind research of antimatter 
in space. Mission duration was 235 hours, 54 minutes.
    STS-111 Endeavour (June 5-19, 2002). The STS-111 mission delivered 
a new ISS resident crew and a Canadian-built mobile base for the 
orbiting outpost's robotic arm. The crew also performed late-notice 
repair of the station's robot arm by replacing one of the arm's joints. 
It was the second Space Shuttle mission dedicated to delivering 
research equipment to the space platform. Dr. Chang-Diaz performed 
three EVAs (space walks) to help install the Canadian Mobile Base 
System to the station's robotic arm. STS-111 also brought home the 
Expedition-Four crew from their 61/2 month stay aboard the station. 
Mission duration was 13 days, 20 hours arid 35 minutes. Unacceptable 
weather conditions in Florida necessitated a landing at Edwards Air 
Force Base, California.

                               Discussion

    Chairwoman Biggert. Thank you very much.
    And thank you all for your excellent, excellent testimony. 
I really appreciate it.
    And we have been joined by the gentlewoman from Texas, Ms. 
Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you, Madame Chair. Thank you, Mr. 
Lampson.
    Chairwoman Biggert. We will now proceed with our questions, 
and we will keep those to five minutes. And so if the answers 
do not stretch out too far, we can ask more questions. And I 
will start.
    Let me just make a comment to Dr. Chang-Diaz.
    Thank you very much for all that you do. I think it is not 
rocket science that we need more scientists and engineers, and 
those in the field of research and for what you do. I hope that 
you carry your NASA brochures with you so that you can 
encourage more and more students to enter into these fields. It 
is very important for what you do, and really appreciate it.
    I know I go into schools and talk about the Science 
Committee and how important it is for young people, and 
particularly young women I think. You know, once they get into 
a--and you do this for 6th through 8th grade. But about that 
age the girls say what? I am not supposed to do math. I am not 
supposed to do science. And so we could keep those minds active 
and I feel it is a very important. Thank you.
    My first question is for Dr. Holtzapple. The StarRotor 
engine and your testimony sounds very promising, almost too 
good to be true, as they say. But what are the remaining 
barriers and why are not the auto companies not beating down 
your door to get a hold of this?
    Dr. Holtzapple. It is interesting you mention that. I have 
had actual conversations with two automobile companies over the 
years. It is still early stage technology, so they are 
skeptical. I think their attitude is that we will be here in 
five or 10 years and when you have got a working engine, let us 
know. I think that is the basic attitude.
    Chairwoman Biggert. Yes.
    Dr. Holtzapple. But I think many companies are risk adverse 
and when you are just getting started, they do not feel it is 
their role to develop new technology. Their role is to 
commercialize things that have been brought to a semi-
commercial state.
    Chairwoman Biggert. Okay. Thank you.
    Then Dr. Smalley, could you comment on the importance of 
energy storage and its challenges, and then the transmission of 
energy, how that is going to change and what you see as the 
challenges?
    Dr. Smalley. If we were able through research, 
technological innovation to come up with technologies that 
would give the equivalent of an interpretable power supply that 
we could not just use for our computers, but use for our houses 
and our small businesses and not just for five to minutes, but 
in fact critically about 12 hours, that has a transforming 
effect on the electrical energy grid. Because now homes and 
businesses that really care about having guaranteed stable 
dependable power will go out and they will buy these units, and 
increasingly this will remove from the electrical energy grid a 
huge variation of between the low point of use in the middle of 
the night and the peak in the late afternoons which causes the 
energy industry to have to put in these peaking power supplies 
that take up a significant fraction of our total capital 
investment.
    In addition, it gets you in a way that's gradual and 
innovated by small and big businesses year by year to a 
situation where you have an extremely robust electrical energy 
grid that is very hard to disrupt by terrorism or accidents.
    And it also gives you the ability now to use energy, 
primary energy sources coming onto the electrical grid which 
are not dispatchable. Wind, for example. In Texas we have a lot 
of wind power. We have a hard time handling that much power on 
the grid because when the wind stops blowing we have to 
generate that power from some other source. If you have the 
storage, you can handle that.
    Well given the two options of doing storage in vast amounts 
with big plants, the handling a gigowatt or more storage or in 
little places; it is much better to do it little because of all 
the innovation that can handle that and when you decide that, 
oops, I made a mistake and it was the wrong technology, so you 
cry and so forth but a year later you can buy the right answer 
and get rid of the old. Kind of like we drop off our computers 
these days.
    Sounds great. We do not have that technology now. But it is 
a place I think that it would be very worthwhile for us to put 
effort, ten to 20 years. It seems to me there must be many 
technologies that are possible that would work on the small 
scale, that are out of the question on a large scale. And I 
think we ought to push them.
    The final ingredient in the electrical energy grid is if we 
could have a transforming affect in our ability to at low cost 
transmit tens to hundreds of gigowatts of power over thousands 
of miles distance. That makes the whole thing work. Because now 
we can bring primary power into the grid from any source, no 
matter how remote. So nuclear power from not only in not your 
back yard, not your friend's back yard, but from someplace that 
you have not got a clue where it is.
    Clean coal from places where we really have convinced 
ourselves we can stick the CO<INF>2</INF> and it is not going 
to come back at us for a 100 years.
    Hydro power from northern British Columbia, stranded gas, 
solar from vast solar farms in the great western deserts. If we 
can bring them in at a net cost to the customer no more than a 
penny or two extra per kilowatt hour for having gotten your 
power from 2000 miles away, now it makes the whole thing work.
    And so in fact you look at the plant and pretty much every 
continent has enough energy in it to handle it, to give you a 
very robust thing. And if you had to describe this energy 
system with one word, like for many years in the world we 
described energy as a one word ``oil,'' what would that word be 
in this new technology? It would be electricity. It would not 
be so much hydrogen. It would certainly be hydrogen being used, 
but it is the electrical grid that I find so intriguing.
    I think this is an area where we should direct major 
frontier research efforts to see if we can bring this about so 
in batteries in T-cells, anyway you could figure out to store 
energy. Something that looks kind of like your ashing machine 
in your house. Something that ultimately GE or Sears or Shell 
would sell. Be a very fertile area. There is a market for this 
right now and there will always be a market for it.
    And then anything we can do to have a transforming affect 
on the cost of electrical transmission over very large 
distances, I think is a very fertile area for our research.
    Chairwoman Biggert. Thank you for your premise.
    Mr. Lampson.
    Mr. Lampson. Thank you, Madame Chair.
    Keep talking for just a minute, Dr. Smalley, about your C-
60. I think you were telling me once how you could use it as a 
storage facility for hydrogen. Is that part of the plan or the 
hope, and can you talk for just a second about it and what--
because we do not have the infrastructure that is necessary to 
use hydrogen if we do develop hydrogen powered vehicles. Is 
that the potential of something we can expect?
    Dr. Smalley. Yes, we would love to find a material X that 
we can put in our gasoline tanks that allows us to go up to our 
friendly Shell stations, since we have Shell as our key concept 
today, and drive away five minutes or later with 300/400 miles 
of energy in our tank. But instead of having put gasoline in 
there or ethanol, we put in hydrogen gas. We would like that 
experience.
    Well, you cannot do it just with an empty tank. You can do 
with a pressurized tank. Actually one can imagine using 
buckytubes to make these even stronger and lighter. But would 
it not be wonderful if we had some sort of magic sponge that we 
can put in there that would absorb the hydrogen, holding the 
hydrogen molecules close enough to the surface of whatever this 
material X is made out of that you can get enough density in 
there so we do not have to take that much larger volume of the 
car. But then be able to get it off reversibly as you drive the 
car.
    So we and quite a number of people around the country since 
the President's announcement of his hydrogen fuel program have 
agonized over just what could that material X be, what would it 
look like? Having every atom of material X have an exposed 
surface, the maximum possible closed surface so that you can 
get as much hydrogen close to that atom of material X as 
possible, it sounds like the right answer. Sounds like a 
buckytube which has every atom with a surface on the top and 
the bottom on the inside. But in addition, the hydrogen has to 
have a reason to want to be there.
    So in the absorption of hydrogen on carbon surfaces there 
is really two ways of doing it that we know about. There is 
fisabsorption, which is not enough, and there is chemisorption 
to make basically hydrocarbons, which is way too much. The 
challenge is to find some way to adjust the diameter of a 
buckytube and add electrons to it, do something that will get 
you to that magic place in the middle which is the sort of 
binding energy we need.
    So we have together with Air Products and NREL, the 
laboratory, together with about 11 other universities, proposed 
to the DOE to set up a virtual center to explore the 
possibilities one can find an answer material X made out of 
carbon in the thought that we have buckytubes are the best 
single guess. But remember, we cannot change the laws of 
physics. So we will go and we will make the best possible 
buckytube and we will find out what gets----
    Mr. Lampson. Are you making progress toward achieving that? 
Is that an expectation and if so, what kind of time period 
might you be looking at?
    Dr. Smalley. I believe within three to five years we can 
give you a pretty firm answer whether or not the laws of 
physics will allow us to do it.
    If it turns out the answer is yes, there is a good answer 
here with buckytubes or some other carbon thing, then we have 
to take on the next challenge of make that, you know, large 
amounts cheaply because there is a lot of volume in those 
gasoline tanks out there. We would need to be able to produce 
these optimized carbon nanotubes in the structure necessary for 
a cost of something like $10 a pound. And that means an 
innovation in the production scheme.
    Well, it turns out we need an innovation in the production 
scheme anyway. So it is an area that we are very happy to 
pursue. But we cannot guarantee that there is a magic sponge. 
The advantage of the sponge would be so great, it would be 
foolish for us or the Nation to not look to see if the sponge 
can exist.
    I will take that as my----
    Mr. Lampson. No. But you will give me time now to squeeze a 
question to Dr. Chang-Diaz before I give up my time. And you do 
not have much time to answer.
    But you are going to be doing some experiments at Oak Ridge 
Laboratory next year. What do you expect to learn from them, 
and maybe you can give us some scenarios, if you would, that 
would describe how some of the work you are doing could be 
applied to solve problems on Earth?
    Dr. Chang-Diaz. Sure. The work at Oak Ridge centers on the 
production of plasma efficiently. And plasma has applications 
much beyond the propulsion application we have chosen. 
Obviously infusion, that is an application that we all know 
about. But plasmas are used today to etch, for example, 
microchips. You can make micro computer memories without using 
those very toxic chemicals that are used today to etch the 
little wafers. You use the plasma discharge and the plasma 
makes the microchip even better. So the waste is virtually 
eliminated. That is one area.
    And now they are talking about plasma being used to 
separate the nuclear waste as well, to be able to take 
advantage of the plasma state to be able to separate the 
elements by weight. This is also a very interesting 
possibility.
    So there is lots of applications that permeate I think all 
of our society.
    Mr. Lampson. Thank you very much.
    My time has expired. Thank you.
    Chairwoman Biggert. Sheila Jackson Lee is recognized for 
five minutes.
    Ms. Jackson Lee. Thank you very much, Madame Chair. And let 
me, if I might, give a portion of my opening statement and then 
ask two questions. And I would simply like to ask that the 
statement in its entirety, ask unanimous consent that the 
statement in its entirety be submitted into the record.
    Chairwoman Biggert. Without objection.
    Ms. Jackson Lee. Thank you very much.
    First of all, allow me to welcome you to Houston. I know 
that you have been welcomed by my colleague and Ranking Member 
Congressman Lampson. And to say how pleased and proud I am to 
be able to participate with the House Science Committee that 
all of us are Members of, and to be able to cite the House 
Science Committee as having an excellent tradition of 
bipartisanship, first of all, but also tackling tough 
scientific and policy problems in an effective bipartisan 
manner. And so this is certainly a very prime example of that.
    I thank the Chairman Biggert for her leadership. We have 
worked together on issues before. And I thank Congressman 
Lampson as the Ranking Member for his invitation, an invitation 
to Houston and as well, the kind of insightfulness and 
enthusiasm he brings to the Committee on the myriad of issues 
under his responsibility. And so thank you, Congressman Lampson 
for this hearing.
    I believe this is an important historic hearing in what we 
call the oil capital of the world. And it begins to encourage 
us to look at the many options that we have, not only to 
balance our oil and gas needs in particular, and Congressman, 
you remember that one of our battles on the Energy Policy Act 
was to focus people on the Gulf and to do an ascertainment of 
what kind of oil and gas resources we had in the Gulf to be 
able to focus. Everyone was focused on ANWR and other places, 
but to focus on the clean technology that we had been 
utilizing. Shell, who is present here today, has utilized 
technology in the Gulf, and I think it has been very 
successful. And so we included that recognizing that we have to 
balance the use of oil and gas along with finding alternative 
needs.
    I might also cite my colleagues to an amendment that I 
offered in the Science Committee that was passed that wanted to 
see a relationship develop between the Department of Energy and 
NASA to be able to find and use the technology that NASA has 
utilized, discovered to help the Department of Energy in their 
research on alternative fuels.
    So I think we can work in cross pollenization.
    [The prepared statement by Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    Thank you.
    First, I would like to echo the remarks of my colleague Congressman 
Lampson in welcoming Chairwoman Biggert to Houston. The Science 
Committee has an excellent tradition of tackling tough scientific and 
policy problems in an effective bipartisan fashion. Today's hearing is 
a perfect example of that cooperation. How to lay the groundwork, so 
that America can continue to lead the world in energy research and 
development, is one of those tough problems that the Science Committee 
and the Energy Subcommittee are grappling with these days. I commend 
the Chairwoman for taking the time to come down to see the great talent 
and experience that Houston have to offer.
    I would also like to commend Mr. Lampson for his great leadership 
on Energy issues, and for being such an excellent ambassador of Houston 
in the House of Representatives. The fact that Congressman Lampson is 
serving as the Ranking Member on the Energy Subcommittee while only in 
his 4th term in Congress, is truly a testament to just how much his 
work and his ideas on this subject are respected in the Science 
Committee. I look forward to working with both Chairwoman Biggert and 
Ranking Member Lampson in the New Year.
    And a special thanks to our hosts here at Rice University. They 
have been great partners in the endeavor to secure the energy needs of 
this nation for generations to come.
    Houston is often called the energy capital of the world--and when 
people think of Texas, they think of oil. Oil and fossil fuels deserve 
much credit for driving our economy and prosperity over the past 
centuries. I know that oil and natural gas will continue to play a 
large role over the next century at meeting our energy needs. However, 
we all know that fossil fuels are not the wave of the new millennium. 
We need to balance our use of fossil fuels with other fuels if we are 
ever going to clean up the air that our children are breathing, or if 
we hope to reverse the course of the climate change that is threatening 
to change life as we know it on this planet. Furthermore, we are overly 
dependent on foreign sources of oil, bought from people that we would 
prefer not be reliant on. For many reasons, we must be thinking ahead 
to a future less dependent on fossil fuels.
    Of course moving away from oil and gas will have a large impact on 
Houston, but I believe that the transition will create wonderful 
opportunities for the people and the businesses in Houston. There is no 
city in the world with a greater depth of expertise on all things 
energy: production, transmission, trading, the policy, the politics, 
the needs, and the markets. Houston is poised to continue its 
leadership in the energy sector.
    From our quality universities like Rice, to R&D facilities over at 
NASA Johnson Space Center, to our huge multi-national energy 
corporations, to dozens of small and medium-sized businesses on the 
cutting-edge of technology--Houston has much to offer. I think they 
will all benefit from the fact that Houston is such an energy hub. 
There is a synergy here, where these great minds feed off of each 
other, and do spectacular things. To promote that kind of fruitful 
activity, I authored one provision of the Energy bill that just passed 
that will create a cooperative effort between NASA and the Department 
of Energy, as well as several other agencies. The effort should spur on 
the development of alternative energy sources and industry from 
technologies that may already exist in federal labs.
    We have an excellent cross-section of the Houston energy research 
community here today. It is always impressive to me to hear of the 
progress they are making in the field of energy. More importantly 
though, I am glad that we are getting their comments on the record so 
that our colleagues back in Washington can get a glimpse into the 
exciting developments here in Houston.
    Again, I thank you all for taking the time to be here today. I look 
forward to the discussion.
    Thank you.

    Ms. Jackson Lee. And with that, I would like to pose some 
questions along that line that here in Texas we do not want to 
talk about exclusion in totality, we want to talk about 
compromise and cooperation between the uses of fuel.
    With respect to the question of NASA, if you would Dr. 
Chang-Diaz, is the work that NASA does compatible with, among 
other things, I know it does great work in health research, but 
is it compatible in finding alternative fuels? And I certainly 
agree with the issue that space exploration equates to human 
survival. But do we have in NASA the amount of diversity and 
the amount of the ability to sort of change its mold to be able 
to be helpful in the research on alternative fuels?
    Dr. Chang-Diaz. I would say the answer is most definitely 
yes. We have now begun a very strong collaboration with Los 
Alamos and also with Oak Ridge in the field of plasma physics 
as it applies thermonuclear research, controlled thermonuclear 
research. That is a direct application.
    Now the technology that has been developed over many years 
of United States investment in energy research it has immediate 
applications in many other areas. One of them is medicine, for 
example.
    Here in Houston/Galveston we have very big medical centers. 
These super conducting magnets that are used to hardness, to 
hold together this high temperature plasmas are the same 
magnets where they put people inside to do an MRI. And these 
are the same technology. We are trying to make them less bulky, 
less expensive, easy to transport because all of this 
technology has to be sent up into space and it has to be light 
weight and it has to be very compact. This will allow people 
then to be able to have access to this technology all over the 
world.
    So these are direct applications that I would say that the 
high investment the United States has made in energy research 
has already there is a handsome payoff.
    Ms. Jackson Lee. Excellent. I am not sure if my time has 
been far spent, but if there is anyone that would answer 
quickly how we can emphasize the public/private partnerships on 
this whole issue of alternative fuels. Anyone want to 
contribute to that?
    Dr. Holtzapple. I would just like to reiterate that there 
is a lot of interest in subsidizing ethanol, for example, as a 
biofuel. And if you could generalize that to any biofuel, not 
just ethanol, I think that would be very helpful.
    I would say that the government is not good at picking the 
winners. That is not really the role of the government. 
Industry is supposed to be smart at figuring out costs and so 
forth.
    Ms. Jackson Lee. That is a good point.
    Dr. Holtzapple. So what the government should be doing is 
setting the goals.
    Ms. Jackson Lee. Yes.
    Dr. Holtzapple. And putting the incentives in place, but 
let the industry figure out the details and how to get there.
    Mr. Mitchell. Could I also comment?
    From the standpoint of institutions, one of the things I am 
comparing Houston Advanced Research Center to some of the 
either institutions or individuals here at the table. We 
intentionally position ourselves not to do the basic and 
theoretical work. We actually position ourselves in that sort 
of middle ground where technologies often fail, which is a 
wonderful laboratory concept not yet commercially scalable. And 
institutions like Houston Advance Research Center, a non-profit 
that works with both government resources and university 
resources and corporate resources we intentionally position 
ourselves to be sort of a bridging institution.
    So I think it is important not just to think about 
individual technologies, but literally think in terms of the 
institutions that will help carry those forward. You cannot go 
to a venture capital company and always expect them to come in 
at the very seed levels of very first generation technologies. 
There is a role which is often not quite as well supported by 
our society for the institutions that will carry the 
technologies to the next step.
    Ms. Jackson Lee. Thank you very much.
    Thank you, Madame Chair.
    Dr. Holtzapple. Just I would like to add they call that the 
valley of death.
    There is a lot of money out there for basic research on the 
order of $100,000 or so. And, of course, industry has money at 
the tens of millions of dollars to do things. But that in 
between area we do not do a very good job of bridging it. And 
among the scientific community it is called the valley death.
    Ms. Jackson Lee. I thank you for that. That has been very 
instructive. And I think we can find a very good balance.
    And thank you very much for allowing me to share.
    Chairwoman Biggert. We will do another round then.
    Mr. Mitchell, you state in your testimony that Houston 
Advanced Research Center has been working for about 18 years?
    Mr. Mitchell. Yes.
    Chairwoman Biggert. On various energy storage devices. Have 
any of these been successful, are they moving on or what has 
happened?
    Mr. Mitchell. Not so much exactly--I'm sorry. Are you 
talking the micro technologies, yes.
    Chairwoman Biggert. Yes.
    Mr. Mitchell. We were funded by the State of Texas to work 
on significant energy storage technology. At that time we felt 
that our technology was among the leading technologies that had 
been developed. But, again, maybe it is the same valley of 
death like comment. It did not see a commercial market, but 
interestingly we turned that same technology and worked with a 
variety of partners, actually in magnetic resonant imaging. So 
there are transitions where technology may not have been ready 
for prime time. We successfully partner with others to take a 
technology into commercial product in MRI devices. Now what we 
are finding is that the world is kind of coming back to the 
timing is right for us again, so we are actually working very 
actively with University of Houston right now in looking at 
both superconductivity and energy storage. And it is that sort 
of a story that is still in progress.
    Chairwoman Biggert. Are there obstacles that remain for the 
use of energy storage devices?
    Mr. Mitchell. I wish I were a physicist to be able to give 
you the details, and I am really not. But I do know that the 
superconductive materials, the big sort of holy grail and 
superconductivity is to get materials that are superconductive 
at higher and higher temperatures. And that is the basis of our 
project with University of Houston. It is a partnership with a 
U.S. Navy Research Lab and the initial results are very 
intriguing.
    Chairwoman Biggert. Thank you.
    Then Mr. Hennekes, in your testimony you mentioned the 
Shell gasification research program. And you talked about that 
it can produce extremes of carbon dioxide that could be 
sequestered. Is your company looking into carbon sequestration?
    Mr. Hennekes. Absolutely. We are not only trying to develop 
a gasification process in order to develop this very pure form 
of CO<INF>2</INF> that can be sequestered. More importantly 
used in tertiary recovery for wells or other as with 
CO<INF>2</INF>, but we are in a joint agreement with several 
other oil companies to determine how CO<INF>2</INF> 
sequestration can be best done, how it can be kept for the 100 
years that is needed so that it is not popping out, how can it 
be monitored for that length of time. And there is an industry 
group that is doing that.
    So Shell is jointly spending research money with others to 
develop how that can best be done and kept properly for the 
very long period of time that this is envisioned.
    Chairwoman Biggert. Thank you. Thank you.
    We have reached 3:15, and I still do not have a way to beam 
myself up to the airport. I guess I could stay longer. But I am 
going to have to excuse myself and head for the airport. But 
certainly enjoyed this.
    I am going to turn it over to Mr. Lampson. Now do not get 
too carried away.
    Mr. Lampson.
    Mr. Lampson [presiding]. Thank you. Thank you for your 
time.
    Madame Chair, let me express my appreciation for you taking 
the time. It is not easy for you to come down here, I know 
that. And we really have had a good relation on that Committee, 
and I appreciate the effort you made to come here.
    Chairwoman Biggert. And I am sorry I have to leave. Because 
this has been an excellent--I wish that it was in Washington so 
that there could be more people that would hear this from the 
Committee.
    Mr. Lampson [presiding]. Which some of them might come up.
    Chairwoman Biggert. I think that we will have to do that at 
some point. So thank you very much.
    Mr. Lampson [presiding]. It is fascinating stuff, and I 
think that they have suggestions on which we can do to improve 
our policy.
    Chairwoman Biggert. Thanks. Thank you.
    Mr. Lampson [presiding]. Thank you very much. Have a safe 
trip home.
    Chairwoman Biggert. Thank you.
    Mr. Lampson [presiding]. My turn.
    Let me start, I guess, with Mr. Hennekes, and maybe follow 
up a little bit with what she has asked about. I know that some 
of the work that is being done on that is at the West Hollow 
Technology Center.
    Mr. Hennekes. Yes. It is here in Houston.
    Mr. Lampson [presiding]. So tell us a little bit about 
their work and how it relates to the research that is being 
done in both gasification and corrosion reduction.
    Mr. Hennekes. I'm sorry. I did not quite hear the last 
part. The gasification I understand.
    Mr. Lampson [presiding]. And corrosion reduction.
    Mr. Hennekes. Okay. Actually, the corrosion reduction, let 
me separate that, is just a totally separate event. And I 
brought that to people's attention so they could understand the 
non-energy business that we deal with.
    But when you do gasification you actually can make if you 
desire this very pure form of CO<INF>2</INF> in a gaseous 
state. It is usually at very, very low pressure. So that it 
requires some pressurization through very standard types of 
compression devices, a compressor from GE or Westinghouse or 
Siemens. And then that material is taken and actually brought 
down, burrowed into the Earth where it is then closed in and 
allowed over a very long period of time to seep into the 
different structures of the Earth rather than going out into 
the atmosphere and rather than creating green house gases.
    The work that we are doing is to understand how the 
CO<INF>2</INF> will react as it sits in the Earth for long 
periods of time, what will need to be done to keep it in? What 
kind of instrumentation do you use to monitor how that CO<INF>2</INF> 
is doing down in the Earth for that long period of time.
    So it is all about what will it take and what is the most 
efficient way to capture and hold for that extended time. That 
is the work that we're doing at West Hollow.
    And for those that do not know, West Hollow is a stone's 
throw, if I had a good arm, a little bit longer than that from 
here about 20 miles almost due west from here.
    Mr. Lampson [presiding]. Okay. And while you are talking, 
let me ask you one other question. How much contribution would 
you expect full deployment of the Shell and the GTL fuels to 
make in reducing air emissions from mobile sources in the 
Houston/Galveston area?
    Mr. Hennekes. The gas to liquids materials, it will be very 
dependent on which type of pollutant you are talking about. But 
there is absolutely no sulphur whatsoever in gas to liquid 
materials. In fact, when you are running an engine, if you are 
an engineer that is worried about an engine and the long-term 
operation of it, you actually have to put lubricants back in. 
Because sulphur itself is a lubricant. We measure something 
called lubricity. And because the gas to liquids have 
absolutely no sulphur whatsoever, you actually lose lubricity 
and you have to put some sort of lubricant back into the fuel.
    So when you talk about SOX and those sort of things to the 
atmosphere, there is none. Okay. It is absolutely at a zero 
level. Not because of rocket science, but because of the fact 
that the catalyst that is required to make the gas to liquids 
will die if sulphur is present. So you have to do an absolute 
brilliant job of removing it.
    In terms of other things, gas to liquids in all the other 
pollutants NOX, and those sort of things, because of the 
material that is being burned it is a very impact energy type 
of material the gas to liquids is, it is lower in NOX, it is 
lower in particulates. CO<INF>2</INF> in the end, from what I 
have seen and the research we are doing, is kind of marginal. 
It depends on how you measure, it depends on who is doing the 
measuring and it is a plus or minus. But for the other things, 
the sulphur, the NOX, the particulates all are significantly 
lower with gas to liquid material.
    Mr. Lampson [presiding]. Dr. Holtzapple, you talked some 
about MOX. And one of the things that you mentioned, I believe 
you said that there was a dramatic reduction, it would go down 
to zero. How?
    Dr. Holtzapple. Yes.
    Mr. Lampson [presiding]. Because that is a problem, is it 
not?
    Dr. Holtzapple. Absolutely.
    Mr. Lampson [presiding]. All of these fuels.
    Dr. Holtzapple. In the StarRotor engine the combustion is a 
continuous combuster rather than the batch-wise combustion that 
occurs in an internal combustion engine. So you design the 
combuster to do a really good job of combustion.
    So one issue is that all the fuel has to go through a flame 
front. None of it slips by. So all the fuel gets burn. There is 
no hydrocarbon emissions at all.
    And in this hypo-engine that we are using air is an excess 
whereas in an internal combustion engine it is on an exact 
balance. When you have air in excess, you do not get CO, you 
get CO<INF>2</INF>, we do not get the carbon monoxide.
    And then in terms of nitrogen oxides, the resonant time in 
the burner is so short there is not enough time to make very 
much nitrogen oxide. So you can almost pollution free 
transportation with the StarRoto engine.
    Mr. Lampson [presiding]. That could be done. But maybe Todd 
or somebody else make some comments. What are we doing with the 
other fuels that are going to be burned in the engines that we 
have today? How do we go about reducing?
    Dr. Holtzapple. Well, in terms of nitrogen oxides, if you 
can lower the flame combustion temperature that helps. So when 
you put alcohols into fuel, it has a higher latency to 
vaporization which cools the combustion process. So you can get 
the height and the maximum temperature in the combuster down a 
little bit, and that helps reduce some of the NOX.
    Mr. Hennekes. We would agree also. When you burn a 
gasification product, you will find that the BTU content is 
something on the order of 10 ten 25 percent of that of natural 
gas. Again, exactly as he suggested, the flame temperature then 
is significantly lower and that is the big push in terms of 
NOX. So you can end up with very, very low levels of NOX.
    If you clean up the sulphur, you can then actually go into 
selective catalyst reduction systems that again use a similar 
concept and you can be down into single digit NOX from burning 
in large production turbines for many, many gigowatts. So if 
you put the right section together that has a low flame 
temperature, low sulphur, able to use another separate 
catalyst, you can get phenomenal low NOX levels from those 
fuels.
    Mr. Mitchell. I will just a comment, which is that the role 
that our organization would play would not be so much to come 
up with a new approach or an approach similar to what they are 
doing, but to work with organizations or individuals like these 
to take those technologies, run through testing validation, 
field trials, demonstrations. But more importantly, put it into 
the context of the regional air sheds, air emissions and in a 
sense do forward modeling and projections to try to figure out 
what would be the impact. Because the role that we look to pay 
is sort of that link between science and policy. How do you 
take a technology that may be at the commercial stage, but then 
really to model over five years, over 10 years with certain 
adoption rates what are the impacts within the regional air 
shed. And that is not just sort of a model looking at, you 
know, so many devices times the air emissions reductions, but 
actually using the more sophisticated air shed modeling 
approaches to really try to make it useful for policy 
discussion.
    Mr. Lampson [presiding]. I am not going to keep you all 
much longer, but I have a couple of areas of questioning that I 
want. I am going to ask everybody at the very end to again 
think about any suggestions that you would have for our 
subcommittee or committee about what we can do to further any 
of the activities that you are in that deals with legislation, 
changes of policy. Anything whatsoever. But before I get to 
that, you can be thinking about it.
    But Dr. Holtzapple?
    Dr. Holtzapple. Yes.
    Mr. Lampson [presiding]. The area, this general area here 
has lost it is the process, I guess I should say, of losing an 
industry. And that is agriculture. We grew a huge amount of 
rice here. And over time the rice markets have gone away and a 
lot of the farming activity on rice has dried up.
    We have looked at some alternative crops. We looked at 
producing sugar cane. We have looked at producing soybeans. We 
have looked at producing other kinds of things.
    Would you talk a little bit about what capabilities we have 
to, we have already said significantly reduce our dependence on 
particularly foreign oil, but tell us more about that and maybe 
you can focus on some of the things that we can do to find the 
types of crops that may be specific to this area and make good 
cash crops?
    Dr. Holtzapple. Absolutely. I have had some contact with 
the LCRA, the Lower Colorado River Authority. And they are 
actually worried about the loss of rice farming because they 
supply water to the rice farmers and they get money for that 
money. So they are also looking for alternative crops.
    We could grow the sweet sorghum that I mentioned. And, in 
fact, one of my students has been growing energy cane in----
    Mr. Lampson [presiding]. What is energy cane? Energy cane 
compares to sugar cane?
    Dr. Holtzapple. Energy cane is a more of a wild type 
variety of sugar cane. You know, sugar cane is a wild plant, 
just like everything that we have is. But as mankind has grown 
these things, they select for certain properties.
    For example, wild corn does not make a huge ear of corn. 
They are little tiny things. And we select for things that make 
more corn, in that case.
    In the case of sugar cane, we've selected for high sugar 
concentrations but the plant has suffered and it is not growing 
as much. So the genes in the current commercial varieties of 
sugar cane enhance more sugar production, but not the fiber 
production.
    And what energy cane is, is it going back more to the wind 
strains that just want to grow prolifically and take over. So 
it is just kind of a cross between a modern high sugar variety 
and the wild type variety.
    Mr. Lampson [presiding]. And part of the problem that we 
found in this area to promote the production of sugar cane was 
its processing or as being able to process that into the energy 
that's necessary that you're proposing, what will it take, what 
kind of infrastructure would it take both in terms of cost and 
anything else that you can think of?
    Dr. Holtzapple. Well, sugar is actually a very capital 
intensive process because you harvest only about three or four 
months out of the year and you have to process all of that 
sugar in a three or four month period. So the factory is very 
large in size for this maximum production rate. But a single 
squeezing mill that squeezes the sugar out of sugar cane is $2 
million, and you need four of those. That is just to buy them. 
And then you have to install them and so forth.
    So the problem is that there is a huge amount of capital 
required to take the sugar cane, squeeze out the juice and 
process it in that three to four month period.
    In the case of our process, you are actually processing it 
over the course of a year so you do not have to have that very 
expensive capital that is sized for a short harvest season. But 
even having said that, it is still going to take a lot of 
capital.
    That energy plantation that I showed where you have half an 
oil refinery. My estimate is the capital would be about $400 
million to build that facility. But you would have to put that 
in perspective. I mean, a full oil refinery you could probably 
tell me more, but a full oil refinery is about a billion or two 
billion dollars I would think.
    Mr. Lampson [presiding]. Certainly more than 400.
    Dr. Holtzapple. Certainly more than 400. So it certainly 
takes a lot of capital, but in perspective of an oil refinery 
or a coal gasification or any of these things, it is actually 
fair low capital.
    I think the major cost is this rubber lined pit with gravel 
on the bottom and a tarp on top of the biomass pile. So we 
purposely over the year engineered it to be really simple and 
low tech so that it can be implemented in the United States and 
all over the world.
    Mr. Lampson [presiding]. Thanks.
    That is all fascinating.
    Dr. Holtzapple. You are welcome.
    Mr. Lampson [presiding]. Everything that all of you are 
doing are absolutely fascinating things.
    I will let you give your last comment to us as far as any 
legislation that you might want us to give consideration to, or 
any other thoughts that you might have and we will end this.
    We will start with you, Todd.
    Mr. Mitchell. Sure. How long can I go on this topic?
    Mr. Lampson [presiding]. Listen, I could listen to it 
forever. It truly it fascinating and there is a lot that we 
have to do to put this stuff into place.
    Mr. Mitchell. If I grant to sort of the summary or the 
highest concept level, I would say from a legislative 
standpoint from my perspective, the recognition of the role of 
organizations like Houston Advanced Research Center. If you 
look at the life cycle of technologies, there is never enough, 
as you can ask any of my colleagues to the left. There is never 
enough research money, but there is research money that we 
provide to institutes of higher education. And a great portion 
of that goes to the basic and theoretical research, and some 
component gets put into the applications.
    At the other end of the cycle, you have venture capital 
dollars and eventually more mature investment capital going 
into these companies. It is that role in between that things 
tend to fall through. And Houston Advance Research Center, for 
example, has literally intentionally positioned itself in that 
middle ground where we can take technologies look at their 
applicability to energy and the relationships to other things, 
for instance air quality or other environmental unintended 
consequences and so forth. That is typically a sparsely funded 
sector, but my view it is no less important than the whole life 
cycle and the qualifications and skill of the people are no 
less--the qualifications are no less required to do that job 
well.
    So I guess from what we would look for, you know, from the 
standpoint of the government recognizing--it's understanding 
that critical role and finding ways that organizations like 
HARC could partner with universities, with companies and with 
the government to be sort of the place where these technologies 
get picked. The winners should not be picked on Capitol Hill. 
The winners should be picked in a forum in which all these 
parties are working together where testing and evaluation and 
implementation are being done in a rigorous and scientific 
fashion.
    Thanks.
    Mr. Lampson [presiding]. Rick?
    Dr. Smalley. Well, I have two answers to this. One just a 
broad issue is I believe that this challenge that we have of, 
well, basically finding a new oil; getting an answer for 
ourselves on this continent to energy prosperity as we get into 
the middle of the century. And since we are not disconnected in 
our business and dealings with the rest of the people in the 
world, the same time developing the technology that allows out 
continents, other peoples to find energy prosperity is a huge 
issue that is going to take, frankly, miraculous scientific 
discoveries before we can enable that.
    At the rate that miraculous discoveries of that magnitude 
have occurred over the past 50 years, I do not think we are 
going to get there fast enough to avoid a pretty unpleasant 
future. So I think we need to take this much more seriously. 
I'm very concerned, as I know many of us are, with the health 
of the physical science as an engineering, the number of 
American boys and girls entering these critical fields that 
must be the areas out of which these miracles will come.
    And I suspect that there is nothing short of Apollo level 
sort of program that happened in the '60's that will really 
address that issue. If we could recapture the magic of Apollo 
and get a new generation of scientists and engineers in the 
2010 to 2020 region as we did the 1960, all sorts of things 
will work out just fine. But short of something involved with 
that, I do not think we are going to get there. So that is my 
concern.
    The second point is more locally if I cannot have $10 
billion a year for the next 20 years, which is what it is going 
to take to do this, let us focus on electrical energy storage 
and transmission. I believe we are going to have a big effect 
with some concentrated efforts in those directions.
    Mr. Lampson [presiding]. Mark?
    Dr. Holtzapple. What I would like to do is kind of give a 
history of how I tried to get my biomass technology out into 
the world.
    It is always about investor confidence. You are trying to 
find a route that you can get the next level of funding, the 
next level of investment. So one of the roads that I thought 
was in New York City they are spending $125 a dry ton to get 
rid of garbage. And I said well I could use that garbage. I can 
turn it into fuels and chemicals and so forth. But then when I 
talked to the garbage companies, they do not know anything 
about running a chemical plant. They know how to haul garbage. 
And then I talked to oil companies, they do not want to 
garbage. So there is this huge resource there which for an 
institutional reason is not being tapped.
    The reason the oil companies do not want to get involved is 
that there is this perception of liability that, you know, 
garbage is dirty and some of it is going to have be landfilled, 
and they are the last ones that touched it. And so if something 
bad is in there, they are going to be liable and they are 
risking the whole rest of their business for that.
    So if somehow we could say it is actually for the Nation's 
better good to figure out how to use these waste materials and 
turn them into something useful, let us put those petty 
liabilities issues aside. Let us deal with those in some 
legislative way. That will be the instant way that we could get 
this technology moving.
    The second road to getting the technology out of the 
laboratory is through subsidies. When I say I think I can make 
it for .75 a gallon, that is my best guess using standard 
engineering practices to estimate capital costs and so forth. 
But when I talk to big companies, they are very risk adverse. 
So what they intend to do is double all the costs. They say, 
you know, it is probably going to be twice what you are saying 
or three times what you are saying, so right now it looks like 
of marginal.
    Well, if it we get the subsidy, then it can work. So what 
the subsidies do is get the comfort level there. It can get it 
started, people working with it and, you know, there is 
something called a learning curve. If you look at computers, 
what's happened with computers over the years; I mean the first 
computer I bought was in 1981 and I paid $3,000 for it. It had 
65k of memory. And now for $3,000 you can get almost a super 
computer.
    The reason we can do that is we are on the learning curve. 
You get a bunch of engineers around a process, they keep 
engineering the costs around. So one of the ways to get it 
kicked off is to have a subsidy. But the roadblock I ran into 
was the ethanol lobby has amassed these huge forces. You know, 
the Corn Growers Association, they have this massive effort to 
say give us our subsidy. Well, I am just one person. I cannot 
amass that effort and how can I make Congress people listen 
that, hey, you know ethanol is kind of neat but there is other 
ways to do it that I think are more economical if you give us a 
chance.
    So if you could just broaden the horizon a little bit, say 
we reasonably want ethanol as the benefits of biofuel, just do 
not use the work ethanol, just broaden it.
    And then third thing it relates to research, and I am in 
that valley of death. We have done research on this process now 
for 12 years. We have had laboratory studies and so forth. We 
are actually in the piloting stage of development. And, in 
fact, some of the people that have been supporting us in that 
piloting effort are here. A venture capital group that over the 
eight years they have been putting out maybe $2 million. And 
they deserve a medal for funding eight years without a penny 
return $2 million for us to keep developing the research. But 
they are kind of getting tired of this. And they need some 
help. And when we go to the government, the problem is their 
entrenched ways of doing things.
    I mean, when people talk to me about making biofuels from 
cellulosics, they always say well ethanol. And what they want 
to do is use enzymes and genetically engineered organisms and 
so forth, and the cost come out to be like a $1.40 a gallon. 
And if only we had more research and more time, we could get 
that cost down. And what I am saying is I do not need any 
scientific breakthroughs; I just need to do it. And if we can 
somehow get the government to say let us open up the field to 
new ideas, let us not keep putting money into the same old 
thing where there is vested interests out there. The DOE has 
been around for a long time, the people that are working in it 
have their pet projects and so forth. I represent an outside 
process, out of the box thinking. And when we go to the 
government, I do not fit into their paradigm so I am denied. It 
is extremely frustrating and some way to break out of that 
would be very, very helpful.
    Mr. Lampson [presiding]. Thank you.
    Mr. Hennekes. Just a couple comments for you. One, I very 
much appreciate your work on the Energy Bill and your 
colleagues. It was the House of Representative that was ready 
to pass it. It was your colleagues in the senior house, the 
Senate, that kept that from going here in the not too distant 
past.
    I would put your arm around your buddies that are senators 
and say we really need this and see if we can put the partisan 
bickering aside and figure how to make this thing pass. And so 
I congratulate you and look for your help with your colleagues 
in the Senate.
    The second thing is I'll agree most adamantly. I might take 
it a step forward. We talked about gas to liquid fuels. Rather 
than just saying ethanol has a credit or rather than biofuels, 
I would say synthetic fuels. So you take the gas to liquids and 
put them on the same level as the ethanol and all those sort of 
things. And, again, let every one of them compete to see which 
one can make the fuel and compete and allow them to work on 
their own merits with an even baseline.
    The third item that I would like to put forward is 
gasification as a whole competes differently than combustion of 
coal in large burning plants. Because coal burns directly and 
you simply put it into the atmosphere, it has a set of 
standards that are conducive to a burner, to a furnace. Because 
we actually make a synthetic fuel and then burn it in a 
turbine, the gasification technology is held to the same level 
as natural gas. And so the coal burners can continue to pollute 
at one level, yet this very clean way to take our nation's 
very, very favorite asset. In fact, if you add up the United 
States, China and India, we have something on the order of 45 
percent of the world's population in coal and it will take us 
many generations into the future. We have a technology that can 
bring us energy very quickly, but we are having to compete on a 
different environmental basis.
    So if you put the coal burner on the same environmental 
basis as the gasification plants, you would have, I think, a 
very clean and very economic way to take our natural resource 
of coal and bring it to energy that can then be distributed 
through the grids, the electrical grids and that sort of thing.
    Mr. Lampson [presiding]. Thank you.
    Mr. Hennekes. Thank you.
    Mr. Lampson [presiding]. Franklin?
    Dr. Chang-Diaz. I just have one thing. What I would like to 
see happen is a much greater real collaboration across 
government agencies. You know, NASA and the DOE tend to be 
rather insular in the way they do business. And we have noticed 
that in our relationships that we struggle to build across the 
national lab and the research here at Johnson Space Center is 
something that is out of the ordinary. It is not the common 
process.
    But I would like to see a more proactive action on the part 
of the government to integrate the various agencies that are 
working on projects that are of synergistic value together. And 
I think that certainly as a taxpayer, I think that we would get 
a lot bigger bang for the buck. So this would be my wish.
    Mr. Lampson [presiding]. Thank you very much.
    We are, I think, living in a funny time as far as 
government is concerned to accomplish some of what you said. It 
would be great if we could work in a truly bipartisan or maybe 
I should say nonpartisan way; that we put these things that we 
have been discussing here today up front as our drop priorities 
because of what it can do for all of our communities and all 
the people within our society, but we seem to get bogged down 
in our politics. And that seems to take the priority away from 
what we truly have the needs that Dr. Smalley said. If we do 
not address these things or find a miracle quickly, then we may 
be too late.
    Hopefully we are not. I know that the work that you all are 
doing are pushing us to get there in time. We appreciate that. 
If there are things that--you have given us suggestions. I will 
try to follow through with those.
    Now several of you mentioned money. You know, I certainly 
do not want to be known as a tax and spend liberal Democrat. 
Judy probably would not be known as a borrow and spend 
Republican.
    We have got to make sure that we put things in the right 
kind of priority and understand that some of what we need in 
this country is going to cost us and we need to pay for those 
in this generation and not the next to make sure that we 
achieve those opportunities for the next generation to be able 
to survive, and to live the quality of life or aspire to the 
quality of life that we have.
    So, thank you all for coming. Thank you for sharing your 
knowledge. Thank you for doing the work that you are doing. And 
I hope that we can do something that will strength that and 
make it happen quicker.
    Thanks very much.
    And for all the rest of you for taking the time to come 
out, thank you. And you all have a happy holiday.
    Thanks for the staff.
    We are adjourned.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
